OFFICE OF INSPECTOR GENERAL
  SEMIANNUAL REPORT
   TO THE CONGRESS




   April 1, 2006 - September 30, 2006
     Mission

     The mission of the Office of Inspector General (OIG) is to contribute to and support
     integrity, efficiency, and effectiveness in all activities of the organizations for which it has
     oversight responsibilities.

     Values

     In accomplishing our mission, OIG is committed to the following:

       • Integrity

       • Excellence

       • Teamwork

     Strategic Goals

       • 	Keep the U.S. Agency for International Development, the African Development
          Foundation, the Inter-American Foundation, and the Congress fully informed on
          those agencies’ programs and operations and the need for, and progress of, corrective
          actions

       • 	Promote improvements in the way that USAID advances sustainable development
          and global interests

       • 	Help USAID achieve management and organizational excellence

       • 	Promote better management of significant and unplanned matters

       • 	Preserve and protect USAID program and employee integrity




II
CONTENTS

  Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 1

  Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Strategic Goal #1: Keep the U.S. Agency for International Development, 

          the African Development Foundation, the Inter-American Foundation, and

          the Congress fully informed on those agencies’ programs and operations

          and the need for, and progress of, corrective actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Strategic Goal #2: Promote improvements in the way that USAID

          advances sustainable development and global interests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Strategic Goal #3: Help USAID achieve management and organizational

          excellence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Strategic Goal #4: Promote better management of signiﬁcant and

          unplanned matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Strategic Goal #5: Preserve and protect USAID program and employee

          integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


  General Strategy for African Development Foundation and

  Inter-American Foundation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


  Appendices: Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





                                                                                                         SEMIANNUAL REPORT TO THE CONGRESS                                  i
ii
MESSAGE FROM THE
INSPECTOR GENERAL
T       his Semiannual Report to
        Congress presents informa­
        tion regarding the United
States Agency for International
Development (USAID) Ofﬁce of
                                       • 	 Keep the U.S. Agency for
                                           International Development, the
                                           African Development Foundation,
                                           the Inter-American Foundation,
                                           and the Congress fully informed
                                                                                 Signiﬁcant OIG activity and
                                                                                 achievements in support of these
                                                                                 goals are described in this report,
                                                                                 and comprehensive statistics and
                                                                                 data regarding our efforts are also
Inspector General’s work and results       on those agencies’ programs and       included.
achieved during the six-month              operations and the need for, and
period ending September 30,                progress of, corrective actions       OIG continues to use a collabora­
2006. It is issued in accordance                                                 tive, proactive, and results-oriented
with the requirements of the           • 	 Promote improvements in the way       approach in support of the integrity,
Inspector General Act of 1978, as          that USAID advances sustainable       efﬁciency, and effectiveness of
amended, and speciﬁcally addresses         development and global interests      USAID, ADF, and IAF programs
our oversight responsibilities for                                               and operations.
                                       • 	 Help USAID achieve management
USAID, the African Development
                                           and organizational excellence
Foundation (ADF), and the Inter-
American Foundation (IAF).             • 	 Promote better management of
                                           signiﬁcant and unplanned matters
The work reported was planned and
executed in support of OIG’s ﬁve       • 	 Preserve and protect USAID
strategic goals:                           program and employee integrity




                                                               Donald A. Gambatesa
                                                               Inspector General




                                                                              SEMIANNUAL REPORT TO THE CONGRESS          iii
iv
EXECUTIVE SUMMARY

D         uring this reporting period,
          OIG continued its audit
          and investigative work
in support of USAID, ADF, and
IAF. These efforts were planned in
                                                      AIDS Relief as well as audits of
                                                      Haiti’s Management of its Public
                                                      Law (P.L.) 480 Non-Emergency
                                                      Monetization Program, Egypt’s
                                                      family planning activities,
                                                                                                            Strategic Goal #4:
                                                                                                            Promote better
                                                                                                            management of
                                                                                                            significant and
furtherance of OIG’s ﬁve strategic                    Guatemala’s family planning projects                  unplanned matters
goals, and positive results were                      and the Ukraine’s Local Governance
realized overall as well as under each                Program. In addition, OIG                             OIG conducted audits on programs
                                                      prepared a summary audit report of                    in Iraq and Afghanistan, on tsunami
goal as follows.
                                                      the Development Credit Authority.                     reconstruction efforts in Indonesia,
                                                                                                            and on hurricane reconstruction in
Strategic Goal #1:                                                                                          Jamaica and Grenada. It has also
                                                      Strategic Goal #3:                                    reported on audit work in the West
Keep the U.S.Agency                                                                                         Bank and Gaza.
for International                                     Help USAID achieve
Development, the                                      management and orga­
African Development                                   nizational excellence                                 Strategic Goal #5:
Foundation, the Inter-                                                                                      Preserve and protect
                                                      OIG conducted audits of USAID’s
American Foundation,                                  activities in limited-presence                        USAID program and
and the Congress fully                                countries in Eastern Africa; a                        employee integrity
                                                      follow-up audit of the Regional
informed on those                                     Center for Southern Africa’s
                                                                                                            Personnel integrity investiga­
agencies’ programs                                                                                          tions resulted in actions across
                                                      Contractor Performance Evaluation
                                                                                                            government and contractor
and operations and the                                Process; audits of Work Plans and
                                                                                                            organizations as well as senior
need for, and progress                                Progress Reports in Mexico Scopes
                                                                                                            USAID management ofﬁcials.
of, corrective actions                                of Work for Field Support Task
                                                      Orders; audits of the Procurement                     Speciﬁc activities are detailed by goal
OIG briefed congressional staff and                   Evaluation Program; and worked                        in the body of this report as well as
issued a follow-up audit report on                    with Supreme Audit Institutions                       in the statistics and data provided in
                                                              1
the Cargo Preference audit that was                   (SAIs). OIG also conducted audits                     the Reporting Requirements section.
published in 2001.                                    of foreign recipients’ compliance                     The following charts provide an
                                                      with ﬁnancial audit requirements                      overall summary of OIG results for
                                                      and provided oversight of ﬁnancial                    this reporting period.
Strategic Goal #2:                                    audits conducted on OIG’s behalf.
Promote improvements                                  In addition, OIG conducted
in the way that USAID                                 information technology audits
                                                      of the privacy program and of
advances sustainable                                  application controls for the Annual
development and global                                Reporting System.
interests
OIG conducted four audits of the
President’s Emergency Plan for


1. Supreme Audit Institutions are the recipient countries’ principal government audit agencies and are often the only organizations that have a legal
   mandate to audit the accounts and operations of their governments.




                                                                                                      SEMIANNUAL REPORT TO THE CONGRESS                 1
        This chart is a summary of the audits conducted and the results:

                                                                       Number of
                            Type of Report                              Reports              Monetary Recommendations ($)*
              Financial Audits
                USAID Programs and Operations                                   0                           0

                Foundations’ Programs and Operations                            0                           0

                U.S.-Based Contractors                                         56                       96,221,277

                U.S.-Based Grantees                                            21                        1,456,444

                     Quality Control Reviews                                    3                           0

                Foreign-Based Organizations                                    100                      11,890,255

                     Quality Control Reviews                                   15                           0

                Enterprise Funds                                                0                           0

              Performance Audits
                USAID Economy and Efﬁciency                                    36                        271,349

                Foundations’ Economy and Efﬁciency                              2                           0

              Other                                                             4                           0

                                  TOTAL                                       237                      109,839,325

              * Monetary Recommendations include questioned costs and funds put to better use.




2       SEMIANNUAL REPORT TO THE CONGRESS
    2
This chart summarizes investigative activity and results.


                                        OIG STATISTICAL SUMMARY

                                                     USAID

                                            As of September 30, 2006

                                          INVESTIGATIVE ACTIONS


                WORKLOAD                                    CIVIL
                CASES OPENED                       75       CIVIL REFERRALS                      0
                CASES CLOSED                       52       COMPLAINTS                           0
                                                            JUDGEMENTS/RECOVERIES                0
                                                            SETTLEMENTS                          0

                CRIMINAL                                    ADMINISTRATIVE
                PROSECUTIVE REFERRALS               6       REPRIMANDS/DEMOTIONS                 13
                PROSECUTIVE DECLINATIONS            4       PERSONNEL SUSPENSIONS                5
                INDICTMENTS                         2       RESIGNATIONS/TERMINATIONS            6
                CONVICTIONS                         1       OTHER ADMINISTRATIVE ACTIONS         2
                FINES                               1       RECOVERIES                           3
                RESTITUTIONS                        1       SUSPENSIONS/DEBARMENTS               1
                                                            SAVINGS                              1
                                                            SYSTEMIC CHANGES                     1




                                        INVESTIGATIVE RECOVERIES

                            JUDICIAL RECOVERIES                                    $231,800
                            ADMINISTRATIVE RECOVERIES                               $53,894
                            SAVINGS                                                $238,953
                            TOTAL INVESTIGATIVE SAVINGS/ RECOVERIES                $524,647




                                                                              SEMIANNUAL REPORT TO THE CONGRESS   3
        SUMMARY OF RESULTS

                                                                                                                as “cargo preference,” is found in
               Strategic Goal #1:                                                                               the Merchant Marine Act of 1936.
               Keep the U.S.Agency for International                                                            OIG conducted a follow-up audit
                                                                                                                of USAID’s Cargo Preference
               Development, the African Development                                                             Reimbursement Under Section 901d
               Foundation, the Inter-American Foundation,                                                       of the Merchant Marine Act of
                                                                                                                     2
                                                                                                                1936 to determine if the Director
               and the Congress fully informed on those                                                         of USAID’s Ofﬁce of Food for
               agencies’ programs and operations and the                                                        Peace (FFP) took corrective action
                                                                                                                on an OIG recommendation. The
               need for, and progress of, corrective actions.                                                   recommendation was that FFP
                                                                                                                obtain from the U.S. Department
                                                                                                                of Agriculture’s Commodity

        I    n accordance with the Inspector
             General Act of 1978, OIG
             keeps the leaders of USAID,
        ADF, IAF, and Congress informed
        on the status of signiﬁcant OIG
                                                            In addition, OIG met with
                                                            representatives from the Senate
                                                            Appropriations Committee and
                                                            the House Government Reform
                                                            Committee to discuss Tiahrt
                                                                                                                Credit Corporation (CCC) invoices
                                                                                                                to cover all outstanding cargo
                                                                                                                preference reimbursements for
                                                                                                                excess ocean freight and determine
        audit and investigative activities,                 Amendment violations OIG                            that all outstanding reimbursements
                                                                                                                                     3
        problems, and issues. OIG issues                    identiﬁed in Guatemala. The Tiahrt                  had been recovered.
        reports on completed audits and                     Amendment contains requirements
                                                                                                                As a result of OIG’s 2001 audit
        investigations and meets periodically               for international family planning
                                                                                                                work, USAID’s FFP asked CCC to
        with the key ofﬁcials and congres­                  projects supported by USAID. OIG
                                                                                                                prepare and submit invoices to the
        sional staff to discuss matters of                  subsequently issued its ﬁnal audit
                                                                                                                Department of Transportation’s
        interest to them.                                   report on this matter (see page 7).
                                                                                                                Maritime Administration for the
                                                                                                                outstanding reimbursements for
                                                                                                                excess ocean freight. According
        OIG Participates                                    EXAMPLE OF AUDIT                                    to the follow-up audit, as of
        in Brieﬁngs for                                     WORK                                                September 2004, USAID recovered
        Congressional Staff                                                                                     approximately $193 million in
                                                            OIG Conducts Follow-                                outstanding reimbursements and
        During this period, OIG briefed                     Up Audit on Cargo                                   FFP ofﬁcials have begun increasing
        staff from the Senate Armed
        Services Committee on the audit
                                                            Preference                                          management controls over the
                                                                                                                cargo preference reimbursement
        and investigative work OIG is                       The United States implements                        process.
        conducting in Iraq. OIG informed                    its international food assistance
        the Committee staff that USAID                      initiatives through ﬁve food
        OIG has had a presence in Iraq                      assistance programs, each of which
        since early in 2003 and that OIG’s                  is required by law to ship a certain
        regional ofﬁce based in Baghdad is                  percentage of tonnage on privately
        currently staffed with seven auditors               owned U.S.-ﬂag commercial
        and one investigator.                               vessels. This requirement, known

        2.	 “Follow-up Audit of USAID’s Cargo Preference Reimbursements Under Section 901d of the Merchant Marine Act of 1936,” April 27, 2006 (Audit Report
            No. 9-000-06-005-P).
        3.	 In March 2001, OIG found that USAID was due an estimated $175 million in outstanding reimbursements for excess ocean freight, “Audit of USAID’s
            Cargo Preference Reimbursements under Section 901d of the Merchant Marine Act of 1936” (Audit Report No. 9-000-01-003-P).




4        SEMIANNUAL REPORT TO THE CONGRESS
    4
                                                                                                          Plan also allocates $5 billion over 5
                                                                                                          years to bilateral programs in more
       Strategic Goal #2:                                                                                 than 100 countries and increases
       Promote improvements in the way that                                                               the U.S. pledge to the Global Fund
                                                                                                          to Fight AIDS, Tuberculosis, and
       USAID advances sustainable development                                                             Malaria by $1 billion over 5 years.
       and global interests.                                                                              The Emergency Plan’s 5-year goal is
                                                                                                          to prevent 7 million HIV infections,
                                                                                                          provide palliative care to 10 million
                                                                                                          people affected by HIV/AIDS, and


O          IG conducts audits of
           USAID programs that
           improve health, education,
and the environment; advance the
growth of democracy and good
                                                     EXAMPLES OF AUDIT
                                                     WORK
                                                     Improvements
                                                                                                          treat 2 million HIV-infected people.
                                                                                                          OIG continues to audit the
                                                                                                          HIV/AIDS program. A series
                                                     Are Needed in the                                    of audits was conducted in
                                                                                                                    4         5               6
governance; strengthen economic                                                                           Tanzania, Guyana, South Africa,
growth, development, and stability;                  President’s Emergency                                            7
                                                                                                          and Nigeria to determine if the
and minimize the human costs of                      Plan for AIDS Relief                                 missions’ Emergency Plans for
displacement, conﬂicts, and natural                                                                       prevention and care activities
                                                     The President’s Emergency Plan
disasters. These audits help ensure                                                                       met the planned outputs in
                                                     for AIDS Relief (Emergency Plan)
that USAID has developed and                                                                              grants, cooperative agreements,
                                                     is a $15 billion, 5-year program
implemented an effective system                                                                           and contracts. These activities
                                                     that provides $9 billion in new
for managing and monitoring these                                                                         included, among others, preventing
                                                     funding to accelerate the delivery
programs so that they achieve their                                                                       mother-to-child transmission, and
                                                     of HIV/AIDS-related prevention,
intended results.                                                                                         increasing the number of (1) new
                                                     care, and treatment services in 15
                                                                                                          counseling and testing outlets, (2)
                                                     focus countries. The Emergency
                                                                                                          individuals who received counseling
                                                                                                          and testing, and (3) individuals
                                                                                                          trained in providing counseling and
                                                                                                          testing services.
                                                                                                          OIG found that in Tanzania,
                                                                                                          Guyana, and Nigeria, the
                                                                                                          HIV/AIDS programs were not
                                                                                                          progressing as expected. Numerous
                                                                                                          issues were responsible for the lack
                                                                                                          of progress, including delays in
                                                                                                          funding the program, insufﬁcient
                                                                                                          monitoring activities, and errors
    Photograph of a USAID-funded coun­                 Photograph of a recipient’s staff
    selor testing blood samples for HIV in             member standing next to a USAID-                   in reported data. Moreover, OIG
    Soweto, South Africa.                              funded van which is used for volun­                could not determine if the HIV/
                                                       tary testing and counseling activities             AIDS program in South Africa was
                                                       in Johannesburg, South Africa.                     progressing because OIG could not
                                                                                                          verify reported outputs.
4. “Audit of USAID/Tanzania’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” May 4, 2006 (Audit Report No. 9-621-06-006-P).
5   “Audit of USAID/Guyana’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” May 25, 2006 (Audit Report No. 1-504-06-005-P).
6.	 “Audit of USAID/South Africa’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” August 11, 2006 (Audit Report
    No. 4-674-06-013-P).
7.	 “Audit of USAID/Nigeria’s Progress in Implementing the President’s Emergency Plan for AIDS Relief,” August 31, 2006 (Audit Report
    No. 7-620-06-004-P).




                                                                                                    SEMIANNUAL REPORT TO THE CONGRESS                    5
        OIG made 14 recommendations to                      USAID/Haiti Achieved                                USAID/Haiti’s P.L. 480 non-
        improve the missions’ controls in                                                                       emergency monetization activities
                                                            Its Planned Outputs in
        these areas.                                                                                            were achieving selected planned
                                                            Its P.L. 480 Activities                             outputs. This was the ﬁrst in a series
        These recommendations included                      But Improvements Are                                of audits planned for ﬁscal year
        ensuring that USAID partners
        receive adequate funds in a timely
                                                            Needed                                              2007.
        manner, requiring that partners                     USAID’s P.L. 480 Title II monetiza­                 OIG found that USAID/Haiti’s
        implement monitoring plans, and                     tion activities involve the selling                 P.L. 480 Title II non-emergency
        developing speciﬁc procedures to                    of agricultural commodities to                      monetization activities were
        verify data.                                        obtain foreign currency for use in                  achieving selected planned outputs.
                                                            U.S. assistance programs. USAID                     However, OIG found that USAID/
        Final action has been taken on four                                                                     Haiti had not developed a current
        recommendations, and management                     missions use monetized funds
                                                            to ﬁnance operational costs to                      Strategic Plan or Performance
        decisions have been reached on ten.                                                                     Management Plan.
                                                            distribute food aid or to ﬁnance
                                                            other development projects within                   OIG recommended that USAID/
                                                            their programs such as health,                      Haiti complete the development
                                                            infrastructure, and governance.                     of its 2007/2009 Strategic Plan
                                                            OIG conducted an audit of                           and associated Performance
                                                            USAID/Haiti’s Management of its                     Management Plan, and obtain the
                                                            P.L. 480 Non-Emergency Monetiza­                    approval of the Latin American
                                                                        8
                                                            tion Program to determine if                        and Caribbean Bureau for the
                                                                                                                2007/2009 Strategic Plan.
                                                                                                                A management decision was
                                                                                                                reached on the ﬁrst recommenda­
                                                                                                                tion, and ﬁnal action was taken on
                                                                                                                the second.


                                                                                                                Family Planning
                                                                                                                Program Activities Can
                                                                                                                Be Improved
                                                                                                                Since 1977, USAID/Egypt has
                                                                                                                assisted the Government of Egypt
                                                                                                                in the area of population and
                                                                                                                health. As of September 2005,
                                                                                                                USAID/Egypt obligated about
                                                                                                                $374 million speciﬁcally for family
                                                                                                                planning activities.
                                                                                                                OIG performed an audit of
                     Photograph of members of a local community association respon­
                     sible for maintaining an agricultural irrigation project ﬁnanced
                                                                                                                USAID/Egypt’s Family Planning
                                                                                                                          9
                     through USAID/Haiti’s monetization program in Les Cayes, Haiti.                            Activities to determine if selected



        8. “Audit of USAID/Haiti’s Management of P.L. 480 Non-Emergency Monetization Program,” September 28, 2006 (Audit Report No. 9-521-06-010-P).
        9. “Audit of USAID/Egypt’s Family Planning Activities,” September 28, 2006 (Audit Report No. 6-263-06-001-P).




6        SEMIANNUAL REPORT TO THE CONGRESS
    6
activities had progressed towards                Local Non-                                        OIG conducted an audit of
their intended outputs. Family                   Governmental                                      Compliance with the Tiahrt
planning activities did not progress                                                               Amendment under USAID/
as intended for 30 of the 59                     Organization Did                                  Guatemala’s Cooperative
activities reviewed. These included              Not Comply with                                               10
                                                                                                   Agreements with the organization
activities such as establishing                  Requirements of the                               to determine whether activities
youth-friendly clinics at Egyptian               Tiahrt Amendment                                  under this program complied with
universities, training providers,                                                                  the Tiahrt Amendment.
conducting 15 training courses                   The Tiahrt Amendment contains
for outreach workers in three                    speciﬁc requirements for interna­                 The organization did not comply
governorates and urban poor areas,               tional family planning projects                   with the ﬁrst two requirements
and developing a mechanism so that               supported by USAID. The Tiahrt                    of the Tiahrt Amendment. From
family planning and reproductive                 Amendment’s provisions that are                   September 2002 through June
health products are available in all             relevant to USAID/Guatemala                       2005, the organization violated the
pharmacies. The activities did not               and a local non-governmental                      Tiahrt Amendment by establishing
meet their planned outputs primarily             organization that collaborates with               quotas and paying promoters in
because of insufﬁcient monitoring                USAID/Guatemala through a                         its marketing department bonuses
of the project’s progress and                    cooperative agreement require that:               based on the number of steriliza­
funding cuts.                                                                                      tions performed. As a result, over
                                                 • 	 Service providers or referral                 $66,000 in USAID funds were used
OIG recommended that USAID/                          agents shall not implement or be              for an ineligible purpose, to pay
Egypt increase oversight of the                      subject to quotas relating to the             bonuses based on the number of
measurement, evaluation, and                         number of births, the number                  sterilizations performed. OIG also
achievement of the approved                          of family planning acceptors,                 identiﬁed opportunities to better
objectives of the family planning                    or the number of acceptors                    ensure that sterilization clients
program.                                             of a particular family planning               receive sufﬁcient information to
                                                     method.                                       make an informed decision.
A management decision has been
reached on this recommendation.                  • 	 The project shall not include                 OIG made six recommendations
                                                     payment of incentives to an                   to USAID/Guatemala, including
                                                     individual in exchange for                    arranging training for appropriate
                                                     becoming a family planning                    personnel, establishing a plan for
                                                     acceptor or to program personnel              monitoring Tiahrt compliance, and
                                                     for achieving a quota.                        requiring the organization to report
                                                                                                   its employee compensation plans.
                                                 • 	 The project shall not deny any
                                                                                                   In addition, OIG recommended
                                                     right of access to participate in
                                                                                                   establishing a process within
                                                     any program of general welfare
                                                                                                   USAID/Guatemala for reporting
                                                     or access to health care as a
                                                                                                   future non-compliance with the
                                                     consequence of an individual’s
                                                                                                   Tiahrt requirements, resolving
                                                     decision not to accept family
                                                                                                   ineligible questioned costs of over
                                                     planning services.
                                                                                                   $66,000, and obtaining evidence that
                                                 • 	 The project shall provide family              the organization provides informa­
                                                     planning acceptors information                tion to potential sterilization clients.
                                                     on the health beneﬁts and risks
                                                     of the method chosen.


10. “Audit of Compliance with the Tiahrt Amendment Under USAID/Guatemala’s Cooperative Agreements,” August 21, 2006 (Audit Report
    No. 1-520-06-007-P).




                                                                                             SEMIANNUAL REPORT TO THE CONGRESS                7
        Management decisions have been                     USAID/Ukraine changed its basis                     USAID Should
        reached on all six recommendations,                for measuring programs under one                    Strengthen Procedures
        and ﬁnal action has been taken on                  of its performance indicators by
        three.                                             reducing the previous performance
                                                                                                               for Its Development
                                                           target without documenting its                      Credit Authority
        When USAID became aware of
                                                           justiﬁcation for the change.                        The Development Credit Authority
        the Tiahrt Amendment violation,
        USAID missions with family                         OIG recommended that USAID/                         (DCA) allows USAID to use credit
        planning projects were directed                    Ukraine develop procedures to                       as a ﬂexible development tool
        to review their programs for                       ensure that performance data is                     for a wide range of development
        compliance with the Tiahrt                         veriﬁed and reviewed, and that                      purposes under the Foreign
        Amendment.                                         changes are documented.                             Assistance Act. Access to credit is a
                                                                                                               chronic problem in less-developed
                                                           Final action has been taken on both                 countries. Private lenders and
        Data Quality Could                                 recommendations.                                    investors are often unwilling to
        Be Improved for Local                                                                                  lend funds to a particular sector
        Governance Program                                                                                     or borrower, or impose heavy
                                                                                                               collateral requirements and short
        USAID/Ukraine’s Local                                                                                  repayment periods. To help
        Governance Program seeks to                                                                            overcome these obstacles, USAID
        enhance the capacity of local                                                                          has used DCA guarantees to
        governments to deliver municipal                                                                       encourage private sector ﬁnancial
        services, develop transparent                                                                          institutions to lend to development
        ﬁnancial planning and management                                                                       projects that would most likely not
        strategies, and provide forums for
        an informed citizenry to actively
        participate in local decision-
        making. OIG conducted an audit
        of USAID/Ukraine’s Local
                               11
        Governance Program to determine
        if USAID/Ukraine was monitoring
        the program in accordance with
        USAID guidance to ensure that
        program activities were progressing
        as intended.
        While OIG found that most of
        the performance data was accurate,
        some data was incomplete,
        erroneous, or not adequately
        supported. For example, one
        USAID/Ukraine partner did not
        maintain documentation to support
        its results, and the mission staff had                      Photograph of a tarpaulin factory in Binh Duong Province,Vietnam. A
        not validated reported improve­                             small and medium enterprises loan guarantee helped the borrower build
                                                                    this factory and expand his business.
        ments for that partner. In addition,


        11. “Audit of USAID/Ukraine’s Local Governance Program,” July 10, 2006 (Audit Report No. 8-121-06-004-P).




8        SEMIANNUAL REPORT TO THE CONGRESS
    8
be funded and stimulate the develop­
ment of effective credit markets.

OIG summarized the audit work
conducted at ﬁve USAID missions in
an audit of USAID’s Development
                  12
Credit Authority. These audits
were designed to determine if
USAID managed its DCA to ensure
that selected intended results were
achieved.
OIG found that in most cases
USAID managed its DCA
guarantees to ensure that many
selected intended results were
achieved. However, USAID needs to
strengthen procedures related to (1)
verifying borrower and loan eligibility
and (2) establishing and monitoring
utilization targets, and reviewing
unused subsidies.
In its summary report, OIG
recommended that USAID develop
and issue policies and procedures to
verify eligibility; clarify requirements
for loans issued under portfolio
guarantees; clarify roles and responsi­
bilities for monitoring guarantee
utilization targets; and issue guidance
for reviewing unused subsidies.
Management decisions have been
reached on all recommendations.




12. “Audit of USAID’s Development Credit Authority,” September 25, 2006 (Audit Report No. 9-000-06-009-P).




                                                                                               SEMIANNUAL REPORT TO THE CONGRESS   9
                                                                                                                   OIG made ﬁve recommenda­
                                                                                                                   tions to address conducting data
                                                                                                                   quality assessments, approving
                 Strategic Goal #3:                                                                                performance management
                 Help USAID achieve management and                                                                 plans, establishing procedures so
                                                                                                                   performance results are supported
                 organizational excellence.                                                                        and reported accurately, and
                                                                                                                   revising performance indicators to
                                                                                                                   measure one aspect of the program.



          O          IG conducts audits to
                     ensure that USAID
                     manages its human
          capital effectively and conforms to
          Ofﬁce of Management and Budget
                                                              not maintain a resident mission.
                                                              These countries are referred to as
                                                              “limited-presence” countries.
                                                              OIG conducted an audit of USAID
                                                                                                                   Management decisions have been
                                                                                                                   reached on four recommendations,
                                                                                                                   and ﬁnal action has been taken on
                                                                                                                   one.

          (OMB) and Ofﬁce of Personnel                        Activities in Limited–Presence
                                                                                           13
                                                              Countries in Eastern Africa to
          Management (OPM) initiatives and
                                                              determine whether the Regional
                                                                                                                   Contractor
          goals. OIG also audits USAID’s                                                                           Performance Evaluation
          strategic plan, congressional budget                Economic Development Services
          justiﬁcation, annual reporting                      Ofﬁce/Eastern and Southern                           Process Needs To Be
          processes, and of its processes for                 Africa (USAID/East Africa)                           Strengthened
          awarding and administering acquisi­                 monitored and reported activities
                                                              in Burundi, Djibouti and Somalia                     OIG conducted a follow-up
          tion and assistance instruments.                                                                         audit of USAID/Regional
          In addition, OIG audits USAID’s                     in accordance with USAID policies
                                                              and procedures. OIG found that                       Center for Southern Africa’s
          ﬁnancial systems, oversees ﬁnancial                                                                      (RCSA) Contractor Performance
          audits of USAID contractors                         USAID/East Africa did not always                                           14
                                                              prepare data quality assessments,                    Evaluation Program to determine
          and grantees, and promotes                                                                               if USAID/RCSA implemented
          improvements in information                         approve performance management
                                                              plans, report results accurately or                  two recommendations from a
          technology infrastructure and                                                                            prior OIG audit. The prior audit
          security awareness.                                 properly, and establish performance
                                                              indicators that measure only one                     determined that USAID/RCSA
                                                              aspect of the program as required.                   had not completed all the required
                                                              According to USAID guidance,                         interim and ﬁnal evaluations
          EXAMPLES OF AUDIT                                                                                        of contracts and task orders in
                                                              performance indicators should be
          WORK                                                uni-dimensional. USAID/East                          excess of $100,000. Although
                                                              Africa used one indicator to                         USAID/RCSA had made progress
          Programs in Limited-                                                                                     in clearing its backlog of contractor
                                                              measure two aspects of an
          Presence Countries                                  education program–enrollment and                     performance evaluations, many
          Can Be Improved                                     attendance. In order to report on                    were still in various stages of being
                                                              both enrollment and attendance,                      completed. Failure to complete
          USAID usually manages its pro­                                                                           the evaluations in a timely manner
                                                              two indicators would have been
          grams with an in-country mission                                                                         resulted in important information
                                                              needed. As a result, they reported
          with resident U.S. direct-hire and                                                                       on contractor performance not
                                                              on enrollment only and did not
          foreign national employees, and                                                                          being recorded and, therefore, not
                                                              measure attendance. Therefore,
          personal service contractors.                                                                            being available for use in the future
                                                              management did not have complete
          USAID also funds new and                                                                                 during source selection for new
                                                              information in order to make
          continuing activities where it does                                                                      awards.
                                                              decisions.
          13. “Audit of USAID Activities in Limited-Presence Countries in Eastern Africa,” September 21, 2006 (Audit Report No. 4-623-06-014-P).
          14. “Follow-up Audit of USAID/Regional Center for Southern Africa’s Contractor Performance Evaluation Program,” May 18, 2006 (Audit Report
              No.4-690-06-007-P).




10         SEMIANNUAL REPORT TO THE CONGRESS
     10
OIG made two additional                            ing partners completed deliverables                 Policies and Procedures
recommendations: that USAID/                       as outlined in their annual work                    Should Be Developed
RCSA prepare and issue written                     plans. For the three remaining
procedures to help its procurement                 agreements, one implementer                         for the Use of Field
staff initiate and complete all ﬁnal               did not submit a work plan, one                     Support Task Orders
and interim contractor performance                 implementer’s work plan did not
                                                                                                       The statutory and regulatory
evaluations as required, and modify                describe deliverables in speciﬁc
                                                                                                       framework within which USAID
its tracking system so that it can be              terms, and the third implementer did
                                                                                                       operates helps to guide and
used as intended.                                  not clearly link its progress reports to
                                                                                                       standardize its stewardship of public
                                                   its work plan.
A management decision has been                                                                         funds as it carries out its foreign
made on the ﬁrst recommendation,                   In addition, USAID/Mexico did                       assistance program. USAID’s
and ﬁnal action has been taken on                  not follow policy requirements that                 contracting process is governed by
the second.                                        encourage agencies to monitor the                   the Federal Acquisition Regulation,
                                                                              16
                                                   efﬁciency of its programs. It did                   supplemented by USAID’s Acquisi­
                                                   not obtain progress reports that                    tion Regulation. In ﬁscal year 2005,
USAID/Mexico Could                                 related quantiﬁed outputs to cost                   USAID’s Ofﬁce of Acquisition
Improve Its Use of Work                            data for any of the 13 agreements                   and Assistance reported that it had
                                                   reviewed. This makes it difﬁcult                    completed nearly 1,500 procurement
Plans and Progress                                                                                     actions, totaling over $4.5 billion.
                                                   for USAID/Mexico to ensure that
Reports                                            outputs and outcomes are achieved
                                                                                                       OIG conducted an audit of Scopes
For ﬁscal year 2005, USAID/Mexico                  at the lowest cost.
                                                                                                       of Work for Field Support Task
had contracts and cooperative                                                                          Orders Issued Under USAID/
                                                   OIG recommended that USAID/
agreements with 13 implementers.                                                                       Washington Indeﬁnite Quantity
                                                   Mexico correct the deﬁciencies in                             17
USAID/Mexico obligated over                                                                            Contracts to determine if the
                                                   three implementers’ work plans
$32 million and spent over $14                                                                         scopes of work clearly deﬁne the
                                                   and progress reporting formats
million to fund activities in justice                                                                  speciﬁc goods or services being
                                                   and obtain progress reports from                              18
reform, government transparency                                                                        procured. OIG found that the
                                                   recipients and contractors that will
and accountability, environmental                                                                      scopes of work for the sampled
                                                   permit USAID/Mexico staff to
protection, energy, microﬁnance and                                                                    ﬁeld support task orders did not
                                                   ensure that efﬁcient methods and
remittances, infectious diseases, and                                                                  clearly deﬁne the speciﬁc goods and
                                                   effective cost controls are used.
competitiveness.                                                                                       services being procured.
                                                   A management decision has been
OIG conducted an audit of the
                                                   reached for the ﬁrst recommendation
Completeness of USAID/Mexico’s
                        15                         but not for the second.
Work Plan Deliverables to
determine if USAID/Mexico
ensured that its implementers
completed deliverables as outlined
in their annual work plans. For 10
of 13 contracts and cooperative
agreements reviewed, USAID/
Mexico ensured that its implement­

15. “Audit of the Completeness of USAID/Mexico’s Work Plan Deliverables,“ June 2, 2006 (Audit Report No. 1-523-06-006-P).
16. Efﬁciency measures are described in OMB Circular A-11, Part 26, Section 26.1 and OMB’s “Guidance for Completing the Program Assessment Rating
    Tool,” dated March 2005.
17. “Audit of Scopes of Work for Field Support Task Orders Issued Under USAID/Washington Indeﬁnite Quantity Contracts,” May 17, 2006 (Audit Report
    No. 9-000-06-008-P).
18. The term “ﬁeld support task order” refers to a centrally managed task order written to support both USAID/Washington bureaus’ technical leadership
    activities and related mission activities.




                                                                                                  SEMIANNUAL REPORT TO THE CONGRESS                      11
          OIG recommended that USAID                        Executive Order 12931; rather, it                 questioned costs of $172,000, 18
          develop and issue policies and                    was a management tool developed                   internal control weaknesses, and 20
          procedures to govern the purpose,                 by USAID to assess and evaluate                   material instances of non-compliance
          content, and use of ﬁeld support                  USAID’s compliance with the                       with agreements.
          task orders issued under USAID/                   requirements of the Executive Order
          Washington indeﬁnite quantity                     12931.                                            OIG recommended that USAID
          contracts.                                                                                          review the questioned costs and
                                                            OIG found that during the last three              recover any amounts determined
          Final action has been taken on this               years, the Ofﬁce of Acquisition and               to be unallowable and obtain
          recommendation.                                   Assistance did not meet this goal and             evidence that the internal control
                                                            did not require missions to comply                and compliance conditions were
                                                            with recommendations.                             corrected.
          Procurement Evaluation
          Program Needs To Be                               OIG recommended that the Ofﬁce
                                                            of Acquisition and Assistance                     Compliance with
          Strengthened                                      develop a plan to verify and
                                                            ensure that USAID will effectively
                                                                                                              Financial Audit
          On October 13, 1994, the President
          signed Executive Order 12931                      implement Executive Order 12931;                  Requirements Regarding
          to ensure effective and efﬁcient                  and require missions to implement                 Foreign Recipients
          spending of public funds through                  recommendations made by                           Should Be Improved
          fundamental reforms in government                 evaluation teams.
                                                                                                              USAID administers most of its
          procurement by addressing three
                                                            Final action has been taken on                    foreign assistance programs by
          areas. One of these areas was to
                                                            the ﬁrst recommendation, and a                    awarding contracts, grants, and
          make procurement more effective by,
                                                            management decision has been                      cooperative agreements, of which
          for example, ensuring that Agency
                                                            reached on the second.                            many are awarded to foreign
          programs meet mission needs by:
                                                                                                              organizations. In order to help
          focusing on measurable results;
                                                                                                              ensure accountability over such
          understanding and meeting customer
          needs; and establishing clear lines of
                                                            OIG Works with                                    funds, ﬁnancial audits are conducted
                                                            Supreme Audit                                     of foreign for-proﬁt and non-proﬁt
          contracting authority and account­
                                                            Institutions to Improve                           organizations, host government
          ability.
                                                                                                              entities, and local currency special
          OIG conducted an audit of USAID’s                 Their Capabilities                                accounts.
                                             19
          Procurement Evaluation Program                    OIG continued to work closely with                Foreign non-proﬁt organizations
          to determine if USAID’s evaluation                selected SAIs. OIG establishes                    spending more than $300,000 of
          of its procurement operations                     standards and procedures for SAI                  USAID funds during their ﬁscal
          veriﬁes and ensures that USAID has                audits of USAID funds and oversees                years are required to have an annual
          effectively implemented Executive                 the SAIs’ work. During this period,               ﬁnancial audit performed. Closeout
          Order 12931. USAID’s Ofﬁce of                     OIG reviewed and transmitted nine                 audits are required of recipients
          Acquisition and Assistance had a                  audit reports on host government                  spending more than $500,000
          goal of evaluating procurement                    agencies that were performed by                   throughout the life of an award.
          operations at all USAID missions                  SAIs on behalf of OIG. These
          every three years. This evaluation                reports audited about $11.9 million
          program was not a requirement of                  in USAID funds, and identiﬁed




          19. “Audit of USAID’s Procurement Evaluation Program,” May 11, 2006 (Audit Report No. 9-000-06-007-P).




12         SEMIANNUAL REPORT TO THE CONGRESS
     12
During this period, OIG conducted                     OIG made 31 recommendations                      A signiﬁcant example of OIG
          20
six audits to determine if the                        to the missions, including that the              oversight occurred in the Latin
selected USAID missions ensured                       missions develop and implement an                America and the Caribbean region
that planned ﬁnancial audits of                       effective audit tracking system, obtain          at USAID/Peru. As part of the
foreign recipients were performed                     and submit all delinquent audit                  program, OIG reviewed a recipient-
and submitted in accordance with                      reports to OIG, review, approve, and             contracted audit report for an
USAID rules and regulations, and                      maintain the audit agreements and                organization that managed several
if the missions ensured that annual                   standard statements of work, and                 USAID-funded activities. The audit
audit plans included all recipients                   amend local guidance.                            covered over $700,000 in USAID
from their award inventory that                                                                        funds, about 4,300 metric tons of
required a ﬁnancial audit.                            Management decisions have been                   P.L. 480 Title II commodities and
                                                      reached on 17 recommendations, and               $3.4 million in P.L. 480 monetization
In ﬁscal year 2005, these missions                    ﬁnal action has taken place on 10.                         22
                                                                                                       proceeds. OIG identiﬁed about
had 212 non-U.S.-based recipients.                    Management decisions have not been               $1.3 million in ineligible questioned
During ﬁscal years 2003-2005, they                    reached on 4 recommendations.                    costs. In reviewing the audit report
reported budget authorizations of                                                                      and a separate ﬁnancial review that
about $1.3 billion for programs                                                                        was performed in conjunction with
such as food security, HIV/AIDS                       OIG Identiﬁed                                    the audit, OIG and USAID/Peru
and other essential health services,                  $120 Million in                                  identiﬁed an additional $697,000 in
basic education, and democracy and                    Questioned Costs                                 questioned costs.
governance.
                                                      OIG maintains oversight of audit                 OIG recommended that USAID/
Although the selected missions had                    work conducted by federal and non-               Peru determine the allowability
made progress towards improving                       federal auditors. OIG then reviews               of about $2 million in ineligible
their recipient ﬁnancial audit                        DCAA’s reports and transmits                     questioned costs and ensure that
programs, there were several areas                    them to USAID management. In                     amounts determined to be unallow­
that needed improvement. For                          addition, OIG provides oversight of              able are returned to the program or
example, only 33 of 112 planned                       non-federal auditors who perform                 to the U.S. Government.
audits for ﬁscal years 2003-2005 were                 audits of U.S.-based non-proﬁt and
                          21
audited on a timely basis, and many                   foreign organizations that receive               Management decisions will be
reports had to be corrected and                       USAID funds and conducts quality-                reached when amounts to be
resubmitted because they were not in                  control reviews to determine if the              returned or recovered are determined
compliance with applicable standards                  audits comply with U.S. Government               by the mission.
and guidelines. In addition, the                      requirements. During this period,
audits identiﬁed 53 expired awards                    OIG issued 174 audit reports which
for $159 million that were not                        identiﬁed about $120 million in
audited even though audits were                       questioned costs, covering about
required.                                             $2.9 billion audited. OIG also issued
                                                      18 quality control review reports
                                                      covering $188.3 million.


20. Six audits were conducted by OIG: “Audit of USAID/REDSO/ESA’s Compliance with Financial Audit Requirements Regarding Foreign Recipients,”
    May 22, 2006 (Audit Report No. 4-623-06-008-P);“Audit of USAID/Ethiopia’s Compliance with Financial Audit Requirements Regarding Foreign
    Recipients,” May 31, 2006 (Audit Report No. 4-663-06-009-P);“Audit of USAID/Tanzania’s Compliance with Financial Audit Requirements Regarding
    Foreign Recipients,” July 31, 2006 (Audit Report No. 4-621-06-010-P);“Audit of USAID/Kenya’s Compliance with Financial Audit Requirements
    Regarding Foreign Recipients,” July 31, 2006 (Audit Report No. 4-615-06-011-P);“Audit of USAID/Malawi’s Compliance with Financial Audit
    Requirements Regarding Foreign Recipients,” July 31, 2006 (Audit Report No. 4-612-06-012-P); and “Audit of USAID/Mozambique’s Compliance with
    Financial Audit Requirements Regarding Foreign Recipients,” September 22, 2006 (Audit Report No. 4-656-06-015-P).
21. This resulted in over $62 million that was not audited in a timely manner.
22. Under P.L. 480 monetization programs, USAID typically permits a cooperating sponsor to auction P.L. 480 food commodities and use the proceeds to
    fund development programs and/or offset administration expenses in the host country.




                                                                                                  SEMIANNUAL REPORT TO THE CONGRESS                    13
          USAID Did Not                                     OIG determined that USAID did                      to prepare USAID’s congressional
          Implement Key                                     not implement the key components                   budget justiﬁcation submission and
                                                            of a privacy program for its                       Performance and Accountability
          Components of a                                   information technology systems to                  Report.
          Privacy Program                                   mitigate the risk of violation against
                                                            key information technology privacy                 OIG conducted an audit of Selected
          The Privacy Act of 1974 (the Privacy                                                                 Application Controls over the
                                                            requirements.                                                                        24
          Act) was created in response to                                                                      Annual Report Application System
          concerns about the collection and                 OIG made nine recommendations.                     to determine whether USAID
          use of personal information, which                For example, OIG recommended                       implemented effective application
          might impact an individual’s privacy              that senior managers request that the              controls over the AR system.
          rights. The Privacy Act states that               Administrator appoint a senior-level
          each agency that maintains a system               Agency privacy ofﬁcial to develop                  OIG found that USAID did not
          of records shall retain only such                 and implement a privacy program                    implement effective application
          information about an individual as is             and that the privacy ofﬁcial assign                controls for the AR system.
          relevant and necessary.                           privacy roles and responsibilities, and            Consequently, USAID has limited
                                                            develop and implement Agency-wide                  assurance that the system’s controls
          In addition, the E-Government Act                                                                    are effectively mitigating risks of
                                                            procedures for performing privacy
          of 2002 was created to complement                                                                    unauthorized disclosure, modiﬁca­
                                                            impact assessments and responding
          the national strategy to secure                                                                      tion, destruction, or loss.
                                                            to privacy violations.
          cyberspace. In accordance with the
          Privacy Act, OMB issued guidance                  Final action has been taken on the                 OIG made seven recommendations
          that required federal agencies to,                recommendation to request that                     to improve controls over the AR
          among other actions, conduct privacy              the Administrator appoint a Chief                  system, including that USAID ensure
          impact assessments for electronic                 Privacy Ofﬁcer, and management                     that the AR system is covered by a
          information systems and collections,              decisions have been reached on the                 security plan, that a risk assessment
          make them publicly available, and                 other eight recommendations.                       is performed, and that improved
          post privacy policies on agency                                                                      password controls are implemented.
          websites used by the public.                                                                         Management decisions were reached
                                                            USAID Should                                       on all the recommendations.
          OIG conducted an audit of
          USAID’s Implementation of Key                     Implement Effective
          Components of a Privacy Program                   Application Controls
          for its Information Technology
                   23
                                                            for Its Annual Report
          Systems to determine if USAID                     Application System
          implemented key components of a
          privacy program to mitigate the risk              USAID developed, maintains,
          of violations of key information                  and operates the Annual Report
          technology privacy requirements.                  Application system (AR system).
          Key components include a privacy                  The AR system supports USAID
          management structure, policies and                reporting needs by collecting
          procedures, awareness and training,               program and resource information
          and monitoring compliance.                        from worldwide operating units. The
                                                            AR system is USAID’s principal tool




          23. “Audit of USAID’s Implementation of Key Components of a Privacy Program for its Information Technology Systems,” June 8, 2006 (Audit Report No.
              A-000-06-003-P).

          24. “Audit of Selected Application Controls over the Annual Report Application System,” September 27, 2006 (Audit Report No.A-000-06-005-P).




14         SEMIANNUAL REPORT TO THE CONGRESS
     14
                                                                                                            Management decisions have been
                                                                                                            reached on two recommendations,
                                                                                                            and ﬁnal action has been taken on
       Strategic Goal #4:                                                                                   one. Management decisions have
       Promote better management of signiﬁcant                                                              not been reached on the recommen­
                                                                                                            dations to establish procedures to
       and unplanned matters.                                                                               ensure that grants under contracts
                                                                                                            are approved by authorized mission
                                                                                                            personnel and to ensure that
                                                                                                            contractor performance evaluations

O
interest.
          IG partners with USAID
          to ensure adequate audit
          oversight of activities of
intense USAID and congressional
                                                      responsibility for providing services
                                                      to its citizens.
                                                      OIG conducted an audit of
                                                      USAID/Iraq’s Local Governance
                                                                                                            are prepared.


                                                                                                            OIG Could Not
                                                                 25
                                                      Activities to determine if those                      Determine If
                                                      activities achieved their intended
                                                                                                            USAID/Iraq’s Ofﬁce of
EXAMPLES OF AUDIT                                     outputs. OIG could not determine
                                                      if USAID/Iraq’s local governance                      Transition Initiatives
WORK                                                  activities achieved intended outputs                  Achieved Intended
OIG Could Not
                                                      because USAID/Iraq did not                            Outputs
                                                      require its contractor to submit all
Determine If USAID/                                   reports and monitoring documents                      The Ofﬁce of Transition Initiatives
Iraq’s Local Governance                               speciﬁed in the contract. Further­                    (OTI) was an active participant
                                                      more, USAID/Iraq did not properly                     in reconstruction and governance
Activities Achieved                                                                                         activities in Iraq. OTI was
                                                      approve all rapid response grants,
Intended Outputs                                                                                            established to support critical
                                                      prepare contractor performance
When USAID/Iraq’s local                               evaluations, or review payment                        initiatives to build Iraqi conﬁdence
governance program began, Iraqi                       vouchers.                                             in the transition to a participatory,
institutions were virtually unable to                                                                       stable, and democratic Iraq through
provide basic services such as water,                 OIG made ﬁve recommendations                          developing and awarding grants
sewer, electricity, and solid waste                   to USAID/Iraq, including requiring                    for investigations of crimes against
collection and disposal. During the                   its contractor to submit quarterly                    humanity, democracy building,
initial year, the local governance                    work plans and reports (including                     human rights, and civic programs.
program focused on: restoring                         intended outputs and milestones).                     As of December 2005, about 4,800
basic services through the use of                     OIG also recommended that grants                      grants valued at approximately $323
rapid response grants; developing                     under contracts be approved by                        million had been awarded.
transparent and accountable local                     authorized mission personnel in
                                                      accordance with the contract and                      OIG conducted an audit of USAID
and provincial governments by                                                                                                             26
                                                                                                            Transition Initiatives in Iraq to
providing technical assistance; and                   USAID guidance. In addition,
                                                      OIG recommended that contrac­                         determine if OTI achieved its
strengthening civil society organiza­                                                                       intended outputs. OIG was not able
tions by providing training. The                      tor performance evaluations be
                                                      prepared as required and that                         to determine if OTI achieved its
second year of the program focused                                                                          intended outputs because documen­
on facilitating Iraq’s transition to a                vouchers submitted by contactors
                                                      and grantees be reviewed against the                  tation to support outputs achieved
sovereign state, with an emphasis                                                                           or monitoring performed was not
on institutional capacity building to                 work performed.
                                                                                                            sufﬁcient. OIG also planned to
enable local governments to take

25. “Audit of USAID/Iraq’s Local Governance Activities,” July 10, 2006 (Audit Report No. E-267-06-003-P).
26. “Audit of USAID Transition Initiatives in Iraq,” August 16, 2006 (Audit Report No. E-267-06-004-P).




                                                                                                     SEMIANNUAL REPORT TO THE CONGRESS              15
          conduct site visits. However, site                    The completion date was later
          visits were possible for only 8 of                    changed to December 2006, with
          the 81 activities. Therefore, OIG                     an estimated cost of $665 million.
          selected an additional 32 activities                  USAID/Afghanistan submitted
          and successfully conducted site                       another request to extend the
          visits. Of the 32 activities visited, 31              contract to July 2007 and to increase
          met the intended outputs.                             the cost to $730 million.
          Overall, OIG found that controls                      The major infrastructure project
          relating to monitoring and                            under the REFS program is the
          documentation of grants could be                      reconstruction of Afghanistan’s
          improved and that OTI activities in                   major east-west highway, which runs                Photograph of a segment of the
          Iraq needed to be better coordinated                  from Kabul to Kandahar to Herat.                   Kandahar-Herat highway in Herat,
          with other USAID/Iraq units to                        The Kabul to Kandahar section has                  Afghanistan.
          avoid duplication of efforts.                         been completed, and the Kandahar
                                                                to Herat section is now being                     OIG recommended that USAID/
          OIG made no recommendations as                        constructed. The United States is
          OTI/Iraq activities ended in June                                                                       Afghanistan develop and implement
                                                                funding the reconstruction of about               procedures with milestones to
          2006, and no additional activities are                326 of the 557 kilometers of the
          planned.                                                                          27                    document, track and promptly
                                                                Kandahar to Herat highway.                        resolve signiﬁcant issues uncovered
                                                                OIG conducted an audit of                         in its own monitoring efforts that
                                                                                                                  could affect the progress of its
          Some Highway                                          USAID/Afghanistan’s Reconstruc­
                                                                tion of the Kandahar-Herat                        reconstruction activities.
          Reconstruction
                                                                Highway Under the the Rehabilita­                 Final action has been taken on this
          Activities Suspended in                               tion of Economic Facilities and                   recommendation.
          Afghanistan                                                              28
                                                                Services Program to determine if
          The Rehabilitation of Economic                        the highway reconstruction activities
          Facilities and Services (REFS)                        were on schedule to achieve planned
          program continues to be the largest                   outputs. OIG found that, except
          and most visible program being                        for 24 kilometers of road work,
          implemented by USAID/Afghani­                         USAID/Afghanistan’s Kandahar-
          stan. Its purpose is to promote                       Herat highway reconstruction
          economic recovery and political                       activities were on schedule. A delay
          stability by repairing infrastructure                 in the request for additional funding
          in Afghanistan. The original                          by USAID/Afghanistan resulted
          contract to implement the program,                    in suspension of work on the 24
          including road reconstruction                         kilometers of highway and the
          and other infrastructure activities,                  extension of the completion date.
          had an estimated completion
          date of December 2005 and an
          estimated cost of $155 million.




          27. Japan and Saudi Arabia are funding the remaining sections.
          28. “Audit of USAID/Afghanistan’s Reconstruction of the Kandahar-Herat Highway Under the Rehabilitation of Economic Facilities and Services Program,”
              May 18, 2006 (Audit Report No. 5-306-06-005-P).




16         SEMIANNUAL REPORT TO THE CONGRESS
     16
Rural Expansion                                     OIG conducted an audit of USAID/                    Issues Affecting Some
of Afghanistan’s                                    Afghanistan’s Rural Expansion of                    Afghanistan School and
                                                    Afghanistan’s Community-based
Community-Based                                                                      29                 Clinic Reconstruction
                                                    Healthcare (REACH) Program to
Healthcare (REACH)                                  determine whether selected program                  Need Resolution
Program Was Successful                              activities achieved their planned                   USAID/Afghanistan is reconstruct­
                                                    outputs.                                            ing schools and health clinics under
The health of Afghans is among the
worst in the world. Development                     OIG found that selected activities                  its Rehabilitation of Economic
indicators published by the World                   under USAID/Afghanistan’s                           Facilities and Services Program. OIG
Bank and the United Nations rank                    REACH program achieved their                        conducted an audit of USAID/
Afghanistan at the bottom of                        planned outputs. Speciﬁcally, 19                    Afghanistan’s School and Health
                                                                                                                                         30
virtually every category, including                 of 20 selected activities achieved                  Clinic Reconstruction Activities to
nutrition, infant, child, and maternal              their planned outputs and one                       determine if reconstruction activities
mortality, and life expectancy.                     partly achieved its planned output.                 were on schedule to achieve planned
                                                    Outputs included, among other                       outputs.
In 2003, USAID/Afghanistan
                                                    things, provision of various types                  USAID/Afghanistan’s school and
awarded a 3-year, $100 million
                                                    of training, technical assistance to                health clinic reconstruction activities,
contract to implement the REACH
                                                    community health worker trainers,                   which had a total estimated cost
program. The contract was
                                                    essential drugs to non-governmental                 of about $92 million, were on
subsequently increased to about $139
                                                    organizations, and grants                           schedule to achieve planned outputs.
million. The goal of the program
                                                    management.                                         Speciﬁcally, in April 2006, USAID/
was to strengthen Afghanistan’s
health systems focusing on the health               OIG did not make any recommenda­                    Afghanistan and its implementing
of women of reproductive age                        tions.                                              partners were on schedule to
and children under age ﬁve in rural                                                                     complete 705 of the 776 school and
communities.                                                                                            health clinic buildings planned to be
                                                                                                        constructed or refurbished.
                                                                                                        Although it was on schedule to
                                                                                                        achieve its planned outputs, it has
                                                                                                        taken USAID/Afghanistan much
                                                                                                        longer than anticipated to reach this
                                                                                                        point. Factors such as deteriorating
                                                                                                        security and weather conditions,
                                                                                                        which were beyond the mission’s
                                                                                                        control, were often responsible for
                                                                                                        the rollback of completion dates and
                                                                                                        changes to the number of buildings
                                                                                                        to be constructed.
    Photograph of an Afghan child with                Photograph of a nurse teaching new
    her mother receiving medical care in              Afghan mothers about hygiene and                  However, USAID/Afghanistan also
    a REACH-supported health clinic in                child care in Kabul, Afghanistan.                 contributed to delays in completing
    Kabul, Afghanistan.                                                                                 the remaining 71 buildings. For
                                                                                                        example, one contractor requested
                                                                                                        that USAID/Afghanistan allow it
                                                                                                        to terminate the reconstruction of

29. “Audit of USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-based Healthcare (REACH) Program,” August 16, 2006 (Audit Report
    No. 5-306-06-007).
30. “Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction Activities ,” August 18, 2006 (Audit Report No. 5-306-06-008-P).




                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS               17
          13 buildings because of dangerous                    Recording Expenditures                                In addition, OIG found that
          security issues at the project sites.                for Tsunami Recovery                                  USAID/Indonesia’s accounting
          However, USAID/Afghanistan                                                                                 records did not separately capture
          did not make a timely decision                       and Reconstruction                                    all tsunami expenditures incurred
          on how or if to ﬁnish the                            Activities Could Be                                   by the implementing partner as
          partially completed buildings.                       Improved                                              required. As a result, the data
                                                                                                                     reported to USAID/Washington
                                                               Following the tsunami in December                     for inclusion in a report to
                                                               2004 President Bush signed                            Congress differed signiﬁcantly from
                                                               the Emergency Supplemental                            both USAID/Indonesia’s ﬁnancial
                                                               Appropriations Act for Defense,                       records and the implementing
                                                               the Global War on Terror, and                         partner’s reports.
                                                               Tsunami Relief, 2005. Of the $656
                                                               million appropriated to USAID,                        OIG made two recommendations
                                                               about $400 million was provided to                    to assist USAID/Indonesia in
                                                               USAID/Indonesia.                                      improving its recording of tsunami
                                                                                                                     expenditures.
                                                               OIG conducted an audit of
                                                               USAID/Indonesia’s Tsunami                             Management decisions were
             Photograph of a clinic that provides              Recovery and Reconstruction                           reached on both recommendations.
                                                                                  31
             basic health care services to 35-40               Program Activities implemented
             patients per day in Paktya, Afghanistan.
                                                               by a USAID implementing partner
                                                               to determine whether the selected                     OIG Follow-up Audit
                                                               activities were completed or                          Identiﬁed Continuing
          Also, USAID/Afghanistan did                          progressing as planned.
          not extend an agreement with a                                                                             Weaknesses in
          partner to construct 51 additional                   As part of its tsunami recovery                       Hurricane Recovery
          buildings because of unacceptable                    and reconstruction activities,                        Activities
          performance, but did not ensure                      USAID/Indonesia provided
          the timely transfer of the work to                   additional funding to support                         In October 2004, following the
          another partner for completion.                      peaceful democratization and the                      devastation caused by Hurricane
                                                               environmental services program.                       Ivan and several other hurricanes,
          OIG recommended that USAID/                          OIG reviewed 9 of 50 activities                       Congress approved $100 million
          Afghanistan make a decision                          and found that 5 democratization                      of supplemental funding for
          regarding the 13 buildings and take                  activities were completed as planned                  reconstruction efforts in the
          the necessary action, and modify                     and 4 environmental services                          Caribbean for a one-year period
          the scope of work to include the 51                  program activities were progress­                     ending on December 31, 2005.
          buildings on another agreement.                      ing. Although the environmental                       Subsequently, this period was
                                                               services program activities were                      extended through June 30, 2006.
          A management decision was
                                                               progressing, OIG could not assess                     USAID/Jamaica received $60
          reached on the ﬁrst recommenda­
                                                               whether they were progressing as                      million from the supplemental
          tion and ﬁnal action was taken on                                                                                        32
                                                               planned because the implementing                      appropriation. The program in
          the second.                                          partner had not set interim targets                   Grenada and Jamaica included
                                                               against which progress could be                       community rehabilitation, business
                                                               measured.                                             and agriculture rehabilitation,
                                                                                                                     schools rehabilitation and re-supply,


          31. “Audit of USAID/Indonesia’s Tsunami Recovery and Reconstruction Program Activities,” September 15, 2006 (Audit Report
              No. 5-497-06-009-P).
          32. USAID/Jamaica received $60 million and allocated $40 million to Grenada, $18 million to Jamaica, and $2 million to the Bahamas and Trinidad and
              Tobago.




18         SEMIANNUAL REPORT TO THE CONGRESS
     18
and support for government                            • 	 Ineligible costs of over $63,000                OIG’s Oversight
operations.                                               were charged to the program,
                                                                                                          Activities Continue
                                                          and costs of over $21,000 were
OIG conducted an audit of                                 incorrectly classiﬁed.                          in the West Bank and
USAID/Jamaica’s Hurricane                                                                                 Gaza
Recovery and Rehabilitation                           • 	 The mission’s management
          33
Activities to determine if the                            oversight model was not as                      OIG’s oversight activities in West
                                                                                35
actions taken by USAID/Jamaica to                         effective as intended.                          Bank and Gaza included audits of
address recommendations made in a                                                                         USAID’s cash-transfer program
                34
prior OIG audit were effective.                       • 	 Work valued at over $341,000 was                to the Palestinian Authority and
                                                          not completed as planned.                       continuing audits of USAID’s
OIG determined that of the ﬁve                                                                            contractors and grantees.
recommendations made in the prior                     OIG made nine recommendations
report, mission actions on three                      related to formalizing revised targets              USAID contracted with indepen­
were effective in addressing the                      for the program, developing a                       dent public accounting ﬁrms to
problems. These three recommen­                       plan to complete construction of                    conduct concurrent audits of
dations related to obtaining qualiﬁed                 new houses and turn them over                       cash transfers to the Palestinian
engineering services, conducting                      to beneﬁciaries, controlling the                    Authority, as well as ﬁnancial audits
detailed voucher reviews, and                         costs associated with any additional                and agreed-upon procedures of
conducting environmental reviews.                     subcontracts, recovering ineligible                 contractors, grantees, subcontrac­
However, the mission’s actions in                     costs that were charged to USAID,                   tors, and sub-grantees. Among
response to two other recommenda­                     and ensuring that reconstruction                    other things, these audits help to
tions—related to establishing clearly                 work ﬁnanced by USAID is                            ensure the validity of costs claimed
deﬁned roles for mission staff and                    completed.                                          and compliance with Executive
the mission’s oversight contractor,                   Final action has been taken on six                  Order 13224 on the blocking of
and achieving performance targets                     recommendations, and management                     assistance to terrorist organiza­
on time—were not effective.                           decisions have been reached on                      tions. During this period, OIG
                                                      three.                                              issued 9 ﬁnal reports, identiﬁed 10
Speciﬁcally, OIG reported that:                                                                           reportable conditions in internal
• 	 New housing construction in                                                                           controls, 15 material instances of
    Grenada and Jamaica was not                                                                           non-compliance, and identiﬁed
    completed on schedule.                                                                                questioned costs of approximately
                                                                                                          $1.4 million of the $42.4 million
• 	 The cost of the new houses                                                                            audited.
    ﬁnanced by USAID in Grenada
    was approximately one-third to                                                                        OIG oversight activities during this
    one-half higher than the cost of                                                                      period did not identify any instances
    comparable houses ﬁnanced by                                                                          where terrorist organizations
    the Government of Grenada,                                                                            received USAID funds.
    and the cost of new houses
    ﬁnanced by USAID in Jamaica
    was more than double the cost of
    comparable houses ﬁnanced by
    the Government of Jamaica.



33. Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation Activities,” April 28, 2006 (Audit Report No. 1-532-06-004-P).
34. “Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation Program,” April 12, 2005 (Audit Report No. 1-532-05-008-P).
35. USAID/Jamaica hired a contractor to assist with oversight of the other contractors.




                                                                                                    SEMIANNUAL REPORT TO THE CONGRESS             19
          OIG Provided Status of
          First 60 Financial Audits
          of West Bank and Gaza
          Activities
          To help USAID meet its expanded
          audit requirements under the
          Appropriation Acts of 2003, 2004,
          2005, and 2006, OIG implemented a
          program to annually audit USAID’s
          contractors and grantees, and signiﬁ­
          cant subcontractors and subgrantees
          that receive USAID funding for the
          West Bank and Gaza Program.
          As of June 5, 2006, OIG issued 60
          ﬁnal audit reports. These reports
          identiﬁed $2.9 million in questioned
          costs of the $134.9 million audited,
          33 reportable conditions, and 68
          material instances of non-compliance
          with agreement terms and applicable
          laws and regulations.
          OIG plans to periodically issue status
          reports of work accomplished.




20         SEMIANNUAL REPORT TO THE CONGRESS
     20
                                                                                                           However, there is no effective
                                                                                                           policy limiting the number of
                                                                                                           transactions performed outside of
       Strategic Goal #5:                                                                                  normal operating hours. As such,
       Preserve and Protect USAID Program and                                                              the cashier never closes because
                                                                                                           customers request service through­
       Employee Integrity.                                                                                 out the day.
                                                                                                           OIG recommended that USAID/
                                                                                                           Nigeria develop policies to restrict


O          IG conducts investigations
           and audits to prevent and
           detect fraud, waste, and
abuse in programs and operations,
and to preserve and protect
                                                     of State, and USAID. A mission
                                                     cashier, among other duties,
                                                     maintains an imprest fund, makes
                                                     cash payments from the imprest
                                                     fund, and accepts payments on
                                                                                                           transactions occurring outside the
                                                                                                           cashier’s normal operating hours.
                                                                                                           A management decision has been
                                                                                                           reached on this recommendation.
                                                                                    36
program and employee integrity. To                   behalf of the U.S. government.
this end, OIG: conducts worldwide                    USAID/Nigeria is authorized to
investigations into allegations of                   maintain a revolving imprest fund
                                                                                                           EXAMPLES OF
criminal, civil, and administrative                  of $100,000.                                          PROACTIVE EFFORTS
violations relative to the programs
                                                     OIG conducted an audit of
and operations; conducts ﬁnancial
                                                     USAID/Nigeria’s Cashiering
                                                                                                           OIG Conducts Financial
and performance audits; maintains                               37                                         Management Training
a Hotline to make it easy to report                  Operations to determine if
allegations of fraud, waste, abuse,                  USAID/Nigeria managed its                             USAID’s contracts and grants
mismanagement or misconduct in                       cashiering operations efﬁciently,                     deﬁne the types of costs that
programs or operations; provides                     economically, and in accordance                       are legitimate charges to support
fraud awareness training; and                        with USAID policies and                               USAID programs. To increase
provides ﬁnancial management                         procedures.                                           awareness and compliance with cost
training to USAID staff, partners,                   OIG determined that USAID/                            principles, OIG has been training
local audit ﬁrms and SAIs.                           Nigeria generally managed its                         overseas USAID staff, contractors,
                                                     cashiering operations in accordance                   grantees and others. This training
                                                     with applicable requirements.                         provides a general overview of both
EXAMPLE OF AUDIT                                     However, the mission did not                          U.S. government cost principles
WORK                                                 manage the operations as economi­                     and audit requirements. It also
                                                     cally or as efﬁciently as it could.                   provides examples of concepts such
                                                     OIG found that the cashier did not                    as reasonableness, allocability, and
Imprest Fund Not                                                                                           allowable and non-allowable costs.
                                                     perform daily cash reconciliations
Managed Economically
                                                     and failed to follow up on outstand­
or Efﬁciently                                        ing advances. USAID/Nigeria’s
Mission cashiering operations are                    cashier is ofﬁcially open every
governed by policies and procedures                  day from 9:00 a.m. to 12:00 p.m.,
issued by the U.S. Department of                     allowing for uninterrupted time
the Treasury, the U.S. Department                    in the afternoon to perform
                                                     other management activities.



36. The purpose of an imprest fund is to make small payments when the ordering of checks is not practical and where the best interests of the U.S.
    government are served by making payments in cash.
37. “Audit of USAID/Nigeria’s Cashiering Operations,” July 31, 2006 (Audit Report No. 7-620-06-003-P).




                                                                                                    SEMIANNUAL REPORT TO THE CONGRESS                21
          During this period, OIG provided        Investigations:                            employees, contractors, grantees
          ﬁnancial management training            Prevention and Fraud                       and others alerts them to fraudulent
          in seven countries to over 400                                                     practices and schemes and advises
          individuals representing SAIs,          Awareness                                  them on how to report fraud if it
          local audit ﬁrms, mission staff, and    OIG employs a number of                    is encountered. When requested,
          USAID partners.                         proactive strategies in order to           the training is tailored to speciﬁc
                                                  prevent fraud. For example,                groups, such as contracting ofﬁcers
                                                  fraud awareness training given to          or cognizant technical ofﬁcers


          This chart illustrates the fraud awareness brieﬁngs conducted worldwide:


          Month        Location                    Sessions      Attendees           Type of Attendee

            APR        Cairo, Egypt                     1             62              ACDI/VOCA Egypt Employees



            MAY         Ain Sukna, Egypt                1             30              USAID Personnel
                        Cairo, Egypt                    1              7              USAID/Egypt & USAID/Yemen Personnel
                        Port au Prince, Haiti           1             13              World Vision
                        Port au Prince, Haiti           1              8              CARE
                        Port au Prince, Haiti           1             15              USAID Contractor
                        Port au Prince, Haiti           1              5              USAID Contractor
                        Columbia, MD                    1             33              USAID New Entry Professionals
                        Washington, DC                  1             30              USAID Contractor
                        Port au Prince, Haiti           1             34              USAID Contractor
                        Port au Prince, Haiti           1             16              USAID Contractor
                        Port au Prince, Haiti           2             53              USAID/Haiti Personnel
                        Washington, DC                  2             39              USAID New Entry Professionals
                        Pristina, Kosovo                2             92              USAID/Pristina Personnel


            JUN         Cairo, Egypt                    1             21              CARE/Egypt
                        Washington, DC                  1             26              CTO Assistance Management
                        Barbados                        1             10              USAID/Barbados Personnel
                        Kingston, Jamaica               1             44              USAID/Jamaica Personnel


             JUL        Paraguay                        1              4              VENDE/Chemonics
                        Paraguay                        1             15              ALTER VIDA
                        Paraguay                        1             10              USAID Casals
                        Paraguay                        1             17              USAID/Paragnel


            AUG                                             Nothing to Report



            SEP         Cairo, Egypt                    1             23              USAID/Egypt Personnel
                        Washington, DC                  1              7              USAID Personnel


                                 TOTAL                 27             614




22        SEMIANNUAL REPORT TO THE CONGRESS
     22
(CTO). Furthermore, investiga­           EXAMPLES OF                                Foreign National
tions resulting in criminal and/or                                                  Contractor Employee
                                         INVESTIGATIVE
civil prosecution are publicized
on USAID’s website and in other          WORK                                       Indicted
publications, calling attention to                                                  An investigation conducted by
prosecutorial action taken against       Investigation Leads to                     OIG regarding Non-Governmental
individuals or organizations whose       Sentencing of Foreign                      Organization (NGO) embezzlement
illegal activities have targeted USAID   Service National                           allegations resulted in a six-count,
programs.                                                                           felony Grand Jury indictment against
                                         An OIG investigation resulted in the
In addition, OIG has developed                                                      an NGO employee for 18 USC
                                         indictment and arrest of a former
several publications and promotional                                                1341 - Mail Fraud violations. The
                                         Foreign Service National (FSN)
materials. “What an Investigation                                                   employee inﬂated expenses for the
                                         employee on charges of theft and
Means to You” outlines the types                                                    transport of emergency food aid
                                         embezzlement in a joint investigation
of activities that OIG investigates,                                                which was submitted to the NGO
                                         conducted with the Department
the purpose of its investigations,                                                  for payment and later forwarded
                                         of State. The FSN, who resigned
the investigative process, and the                                                  to USAID for reimbursement. The
                                         from the USAID Mission Cashier’s
employee’s role in that process.                                                    billing differential, an estimated
                                         Ofﬁce to work for the U.S. Embassy
Another publication, “What to                                                       $250,000, was pocketed by the
                                         Cashier’s Ofﬁce, embezzled over
Report,” provides speciﬁc guidelines                                                employee.
                                         $200,000.
for making complaints to the
OIG Hotline while OIG’s “Fraud           The FSN was sentenced to 30
                                         months’ incarceration and ordered          Further Funding
Indicators” publication encourages
its reader to explore various            to pay $214,000 in restitution after       Suspended Under
techniques to identify indicators of     being arrested in Charleston, South        USAID Grant
fraud. Furthermore, OIG Hotline          Carolina by agents from USAID and
                                         the State Department.                      A joint investigation conducted
posters, ﬂyers, and cards have been                                                 with Regional Inspector General
distributed worldwide. In an effort                                                 /Frankfurt Audit and coordinated
to expand OIG’s outreach efforts,                                                   with USAID/Russia identiﬁed
these materials are produced in          Foreign Service
                                                                                    potential irregularities associated with
English, Spanish, French and Arabic.     National Embassy
                                                                                    a series of invoices that had been
                                         Employees Fired for                        paid under a $1.1 million USAID
During the reporting period, OIG
received 2,210 hotline contacts. Of      Cause                                      grant award. OIG was unable to
these, 28 were referred for possible                                                verify the existence of the vendors
                                         An OIG investigation of an
case openings, 193 were referred to                                                 involved. Based on the investigative
                                         Embassy General Services Ofﬁce
USAID, 9 were referred to other                                                     results, USAID/Russia suspended
                                         (GSO) revealed that three GSO
federal agencies, 13 were referred to                                               further funding under the award
                                         employees used USAID procure­
other law enforcement agencies, and                                                 pending a complete review.
                                         ments for personal ﬁnancial gain. As
6 were found to be unsubstantiated.      a result of the investigation, the three
The remaining contacts were solicita­    GSO employees were terminated.
tions for money, advertisements, or
requests for general information that
were non-OIG-related matters.




                                                                                SEMIANNUAL REPORT TO THE CONGRESS              23
          Local Firm’s USAID                         letters of reprimand to suspensions      Investigation of Foreign
          Grant Terminated                           of duty, were administered by the        Service National
                                                     mission.
          An OIG investigation led to the                                                     Employee Results in
          termination of a local USAID grant.                                                 Letter of Reprimand and
          The ﬁrm, which submitted false             Senior Foreign Service                   Systemic Change
          information during the USAID               Ofﬁcer Retires in Lieu of                The OIG initiated an investigation
          funding application process, also          Suspension
          submitted false billing statements                                                  after an anonymous source reported
          at the inception of the grant. After       As a result of an OIG investigation,     a conﬂict of interest violation by a
          several allegations were conﬁrmed, the     a member of the Senior Foreign           FSN employee, who released sensitive
          USAID mission quickly terminated           Service (SFS) retired in lieu of a       and proprietary information to a
          the grant, resulting in a savings to the   proposed 45-day unpaid suspension.       competing USAID sub-contractor.
          government of $235,000.                    The SFS Ofﬁcer routinely abused          The FSN violated the Standards of
                                                     his privilege to use a government-       Ethical Conduct by requesting that a
                                                     issued vehicle, which included the       USAID sub-contractor, a company
          Foreign Service National                   transport of visiting relatives to an    for which the employee was the CTO,
          Employee Resigns in Lieu                   unofﬁcial recreational activity in a     consider hiring a close and personal
                                                     neighboring country. The investigation   friend. The employee received a
          of Termination                                                                      letter of reprimand and was required
                                                     further revealed that the SFS Ofﬁcer
          As a result of an OIG investigation,       pre-selected the replacement for a       to attend ethics training. As a result
          a USAID FSN employee resigned in           departing mission ofﬁcer and accepted    of the investigation, the mission
          lieu of termination. The employee          gifts in his ofﬁcial capacity from       implemented a new Ethics Account­
          had solicited kickbacks from a local       prohibited sources valued over the $20   ability System that requires all FSNs to
          real estate ﬁrm related to a proposed      threshold.                               read and sign (in English or Spanish)
          purchase of land by the USAID                                                       the new ethics requirements form.
          mission. Prior to the termination
          action, the employee resigned.             Investigation of Foreign
                                                     Service National                         Foreign Service National
                                                     Employee Results in                      Terminated for Falsifying
          15 Foreign Service                                                                  Information Technology
          National Employees                         Termination
                                                                                              Invoices
          Reprimanded and/or                         As a result of an OIG investigation,
                                                                                              An OIG investigation has led to
          Suspended                                  a USAID FSN was terminated. The
                                                     FSN used a government charge             the termination of a USAID FSN.
          An OIG investigation resulted in           account to purchase automotive parts     The employee created a fraudulent
          10 USAID FSN employees being               for a personal vehicle. After the OIG    purchase order by cutting and pasting
          reprimanded and 5 being suspended.         referred the matter to the USAID         pieces of approved purchase orders
          The investigation revealed that several    mission, the employee was terminated.    into a document. When confronted
          USAID mission employees were                                                        with the evidence, the employee
          abusing their government computer                                                   admitted creating the document
          privileges by viewing, storing, and                                                 and was terminated by the USAID
          sending sexually explicit material on                                               mission.
          their government computers and
          through the government computer
          network system. Varying degrees
          of disciplinary action, ranging from




24        SEMIANNUAL REPORT TO THE CONGRESS
     24
GENERAL STRATEGY FOR THE
AFRICAN DEVELOPMENT
FOUNDATION AND THE
INTER-AMERICAN FOUNDATION

I  n 1999, the OIG assumed audit
   and investigative oversight
   of African Development
Foundation (ADF) and Inter-
American Foundation (IAF).
                                         Congress appropriated $19.3 million
                                         to IAF in ﬁscal year 2006. Currently,
                                         IAF supports 240 projects in 25
                                         countries. Both foundations are U.S.
                                         government corporations.
                                                                                 Performance audits also play a role
                                                                                 in maintaining effective controls
                                                                                 within ADF and IAF. For that
                                                                                 reason, OIG conducts performance
                                                                                 audits of ADF and IAF periodically.
ADF, which began ﬁeld operations         OIG’s strategy includes conducting
in 1984, provides grants directly        ﬁnancial and performance audits of
to community groups in Africa.           ADF and IAF. OIG contracts with
Congress appropriated $23                non-federal auditors to perform
million to ADF in ﬁscal year 2006.       ﬁnancial audits and provides
Currently, ADF supports approxi­         on-going technical audit advice
mately 218 projects in 15 African        and oversight. OIG issues annual
countries. IAF was established in        ﬁnancial statement audits of ADF
1969 and provides development            and IAF.
grants directly to local organizations
in Latin America and the Caribbean.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS        25
26
               A

               P

               P

  REPORTING
               E
REQUIREMENTS
               N

               D

               I
               C
               E
               S
                    27
                            USAID FINANCIAL AUDIT REPORTS ISSUED

                              April 1, 2006 through September 30, 2006

                                                                                                               Amount of
        Report             Date of                                                                                         Type of
                                                                  Report Title                                  Findings
        Number             Report                                                                                          Findings
                                                                                                                ($000s)

                                                 --FOREIGN-BASED ORGANIZATIONS-­

     1-519-06-005-N       08/11/06   Financial Audits of the Earthquake Recovery Program (EREP), Small            6          QC
                                     and Micro Business Activity,Technical Assistance Fund Sub-Activity,
                                                                                                                  5          UN
                                     Grant Agreement 519-0458, Managed by the National Commission for
                                     the Micro and Small Enterprise (CONAMYPE), for the Years Ended
                                     December 31, 2004 and December 31, 2005
     1-527-06-067-R       04/06/06   Close-Out Financial Statement Audit for the Project “Reconstruction
                                     of the Nieva Bridge and Access,” Administered by the Special Project
                                     for National Transport Infrastructure - PROVIAS Departmental, Under
                                     Strategic Objective Grant Agreement No. 598-0858, for the Period from
                                     May 1, 2004 to June 15, 2005
     1-527-06-068-R       04/10/06   Financial Statement Audit and Commodity Status Report of (1) Food           243         QC
                                     Monetization Program PL-480,Title II, Monetization DAP,Agreement
                                     No. FFP-A-00-02-00019-00-02 and (2) Program to Support the
                                     Implementation of a Logistics System to Provide Overall Health Services
                                     by the Health Ministry, 2002-2006 General Working Plan,Agreement
                                     No. 527-A-00-96-00470-07, Managed by Asociacion Beneﬁca Prisma for
                                     the Period from January 1, 2004 to December 31, 2004 and Report on
                                     the Financial Review of the Mico-Credit Program as of December 31,
                                     2004
     1-521-06-069-R       04/18/06   Fund Accountability Statement Audit of USAID/Haiti’s Resources Under         37         QC
                                     Cooperative Agreement No. 521-A-00-02-00025-00, Managed by
                                                                                                                  37         UN
                                     Association des Oeuvres Privees de Sante, for the Six Months Period
                                     Ended June 30, 2005
     1-522-06-070-R       04/28/06   Close-Out Fund Accountability Statement Audit of USAID/Honduras              2          QC
                                     Resources Executed by the Secretariat of Natural Resources, Managed
                                     by the State Forestry Administration-Honduran Forestry Development
                                     Corporation, Under Project No. 522-0415, Effective and Sustainable
                                     Water Management, for the Period from July 11, 2003 to July 31, 2005
     1-522-06-071-R       05/08/06   Close-Out Fund Accountability Statement Audit of USAID/Honduras              68         QC
                                     Resources Managed by the State Forestry Administration-Honduran
                                                                                                                  29         UN
                                     Forestry Development Corporation, Under Project No. 522-0415,
                                     Effective and Sustainable Water Management, Forest and Water Project,
                                     for the Period from July 11, 2003 to July 31, 2005
     1-521-06-072-R       05/12/06   Financial Statement Audit of USAID Program for the Recovery of the           1          QC
                                     Economy in Transition, Project No. 521-A-00-99-00073-00, Managed by
                                                                                                                  1          UN
                                     Societe Financiere Haitienne de Developpement S.A., for the Period
                                     October 1, 2003 to September 30, 2004




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





28      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                        Amount of
     Report       Date of                                                                                                Type of
                                                           Report Title                                  Findings
     Number       Report                                                                                                 Findings
                                                                                                         ($000s)
 1-538-06-073-R   05/19/06   Close-out Audit of the Fund Accountability Statement of the
                             Administration of Justice Program No. 538-004-01, Managed by the
                             Organization of Eastern Caribbean States, for the Period from July 1,
                             2004 to September 30, 2005
 1-519-06-074-R   05/19/06   Close-out Fund Accountability Statement Audit of USAID Resources,
                             Managed by the National Commission for Micro and Small Enterprise,
                             Under the Strategic Objective Grant Agreement No. 519-001,
                             “Expanded Access and Economic Opportunities for Rural Families in
                             Poverty,” Activity No. 519-0460 “Growth of Enterprises Exports and
                             Artisans,” for the Period from January 1, 2004 to February 28, 2006
 1-527-06-075-R   06/06/06   Financial Statement Audit of the Institute for High-Quality Health Care
                             -- Max Salud, Cooperative Agreement 527-A-00-99-00307-00, for the
                             Year Ended December 31, 2005
 1-520-06-076-R   06/30/06   Close-out Audit of the Fund Accountability Statement of the “Mejoras
                             a la Calidad y Mercadeo del Cafe Project,” Agreement No. CA-520-A­
                             00-03-00045-00, Managed by the Asociacion National del Cafe, for the
                             Period from January 22, 2003 to September 30, 2004
 1-522-06-077-R   06/30/06   Audit of the Fund Accountability Statement of the USAID/Trade
                             Investment and Competitiveness Program, Cooperative Agreement
                             No. 522-A-00-05-00303-00, Managed by Foundation for Investment
                             and Development of Exports, for the Period from April 6, 2005 to
                             December 31, 2005
 1-532-06-078-R   06/30/06   Close-out Audit of USAID Resources Managed by the Caribbean
                             Community Secretariat Under Regional Strategic Objectives Grant
                             Agreement Nos. 538-004-01, 538-005-01, 538-006-01, and 538-008-01,
                             for the Period from January 1, 2005 to September 30, 2005
 1-512-06-079-R   07/07/06   Fund Accountability Statement Audit of the Grant No. 512-A-00-0003­            88             QC
                             00026-00, Managed by Instituto Internacional de Educacao do Brasil, for
                                                                                                            88             UN
                             the Period from October 1, 2003 to September 30, 2004

 1-521-06-080-R   07/06/06   Fund Accountability Statement of USAID Resources Managed by La
                             Fondation Heritage Pour Haiti Under Cooperative Agreement No. 521­
                             A-00-02-00023-00 for the Period from October 1, 2004 to September
                             30, 2005
 1-532-06-081-R   07/11/06   Financial Audit of the Caribbean Centre of Excellence for Teacher               1             QC
                             Training Project Under Cooperative Agreement Number EDG-A-00-02­
                             00038-00, Managed by the University of the West Indies/Joint Board of
                             Teacher Education for the Period from August 1, 2004 to July 31, 2005
 1-521-06-082-R   07/12/06   Financial Statement Audit for USAID/Haiti’s Resources Under                    80             QC
                             Cooperative Agreement No. 521-A-00-05-00010-00, for the Period
                                                                                                            80             UN
                             from November 29, 2004 to September 30, 2005, Managed by Fondation
                             Haitienne de L’Environnement




                                                                                                       BU--Better Use of Funds

                                                                                                       QC--Questioned Costs

                                                                                                       UN--Unsupported Costs

                                                                                                       Note: UN is part of QC





Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS                  29
                                                                                                              Amount of
        Report             Date of                                                                                        Type of
                                                                  Report Title                                 Findings
        Number             Report                                                                                         Findings
                                                                                                               ($000s)
     1-532-06-083-R       07/17/06   Financial Audit of the Uplifting Adolescents Project II Under               20         QC
                                     Cooperative Agreement No. 532-A-00-01-00002-00, Managed by
                                                                                                                 17         UN
                                     People’s Action for Community Transformation for the Period from July
                                     1, 2003 to June 30, 2004
     1-520-06-084-R       07/14/06   Audit of the Fund Accountability Statement of the Project Industrias
                                     para la Paz, Cooperative Agreement No. 520-A-00-99-00069-00,
                                     Administered by Asociacion Gremial de Exportadores de Productos no
                                     Tradicionales de Guatemala, for the Year Ended June 30, 2004
     1-520-06-085-R       07/14/06   Audit of the Fund Accountability Statement of the Project Industrias
                                     para la Paz, Cooperative Agreement No. 520-A-00-99-00069-00,
                                     Administered by Asociacion Gremial de Exportadores de Productos no
                                     Tradicionales de Guatemala, for the Year Ended June 30, 2005
     1-527-06-086-R       07/18/06   Fund Accountability Statement and Commodity Status Report of the
                                     Food Monetization Program PL-480,Title II,“Program for Opportunities
                                     for Regional Economic Development to Reduce Social Exclusion,”
                                     Cooperative Agreement No. FFP-A-00-02-00023-01, Managed by
                                     CARITAS del Peru, for the Period from January 1, 2004 to December
                                     31, 2004 and Report on the Financial Review of the Micro-Finance
                                     Program as of December 31, 2004
     1-532-06-087-R       07/25/06   Fund Accountability Statement Audit of the HIV/AIDS Prevention and          1          QC
                                     Control Activity,Agreement No. 532-011, Managed by the Ministry of
                                                                                                                 1          UN
                                     Health, for the Period from January 1, 2005 to September 30, 2005
     1-532-06-088-R       10/27/06   Close-out Financial Audit of the Micro-Finance Loan Project No. 532-A­
                                     00-01-00069-00, Managed by the Jamaica National Building Society, for
                                     the Period from April 1, 2004 to June 30, 2005
     1-527-06-089-R       08/02/06   Audit of the Fund Accountability Statement for the Activity,                9          QC
                                     “Strengthened Environmental Management to Attend Priority
                                                                                                                 1          UN
                                     Problems,” Agreement No. 527-0407, Managed by the Instituto Nacional
                                     de Recursos Naturales, for the Period from March 1, 2005 to December
                                     31, 2005
     1-527-06-090-R       08/10/06   Close-Out Financial Statement Audit of the Program “Participacion y
                                     Vigilancia de la Sociedad Civil en la Reforma Y Desempeno del Systema
                                     de Administracion de Justicia,” Agreement Number 527-A-00-02-00221,
                                     Managed by Instituto de Defensa Legal for the Period from January 1,
                                     2005 to March 31, 2006
     1-527-06-091-R       08/10/06   Audit of the Fund Accountability Statement of the Institutional
                                     Strengthening of the Ofﬁce of the Ombudsman for the Supervision of
                                     State Reform and Promotion of Citizen Vigilance, Bilateral Agreement
                                     No. 527-0402-OMB-02, Managed by the Ofﬁce of the Ombudsman, for
                                     the Period from January 1, 2004 to December 31, 2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





30      SEMIANNUAL REPORT TO THE CONGRESS                                                                                 Appendix A
                                                                                                        Amount of
     Report       Date of                                                                                                Type of
                                                           Report Title                                  Findings
     Number       Report                                                                                                 Findings
                                                                                                         ($000s)
 1-596-06-092-R   08/11/06   Audit of the Fund Accountability Statement of the Project Small Grants
                             for the Environmental Management Program Cooperative Agreement
                             No. 596-A-00-03-00058-00, Managed by the Centro Agronomico
                             Tropical de Investigacion y Ensenanza for the Period from March 12,
                             2003 to December 31, 2004
 1-527-06-093-R   08/14/06   Financial Statement Audit of the Program “Increase in Microﬁnance
                             Services for the Activities of the Poor,” Cooperative Agreement No.
                             527-A-00-02-00224-00, Managed by Consorcio de Organizaciones
                             Privadas de Promocion la Desarrollo de al Micro y Pequena Empresa,
                             for the Year Ended December 31, 2005
 1-527-06-094-R   08/23/06   Financial Audit of USAID Grant Agreement No. 527-0375,“Coverage                 3             QC
                             with Quality Project,” Managed by the Ministry of Health - Program for
                             Administration of Management Agreements, for the Period from January
                             1, 2004 to December 31, 2005
 1-522-06-095-R   08/29/06   Financial Statement Audit of USAID Resources Managed by the
                             Federacion de Organizaciones Privadas de Desarrollo de Honduras,
                             Strengthening the Democratic Process in Honduras Project,Agreement
                             No. 522-A-00-02-00350-00, for the Period from October 1, 2004 to
                             September 30, 2005
 1-511-06-096-R   09/05/06   Close-Out Fund Accountability Statement of the Population Council for
                             Sustainable Development, Grant Agreement No. 511-0644.02, Managed
                             by the Ministry of Sustainable Development and Planning, for the Period
                             January 1 to March 31, 2005
 1-527-06-097-R   09/08/06   Financial Audit Report of USAID Agreement No. 527-0368,“Close                  90             QC
                             Out Audit of SENREM Project,” and Agreement No. 527-0407,“STEM
                                                                                                            90             UN
                             Project,” Managed by the National Environmental Council, for the
                             Period from January 1, 2004 through December 31, 2004
 1-511-06-098-R   09/07/06   Fund Accountability Statement Audit of the Integral Health Project
                             Chapare, Grant Agreement No. 511-0643, Managed by Ministry of
                             Health and Sport, for the Year Ended December 31, 2005
 1-522-06-099-R   09/08/06   Close-out Fund Accountability Statement Audit of the Honduras
                             Municipal Development Project No. 522-0340.00 (Child Survival
                             Program), Managed by the Honduran Social Investment Fund/
                             Directorate of Major Infrastructure, for the Year Ended December 31,
                             2005
 1-522-06-100-R   09/06/06   Audit of the Fund Accountability Statement for the EDUCATODOS                   1             QC
                             Program, Under Grant Agreement No. 522-0436, Managed by the
                             Secretariat of Education, for the Year Ended December 31, 2005
 1-532-06-101-R   09/14/06   Close-out Financial Audit of Market Oriented Recovery of Exports
                             Program No. 532-A-00-03-00011-00, Managed by the Jamaica Exporters’
                             Association, for the Period from January 1, 2005 to June 30, 2005




                                                                                                       BU--Better Use of Funds

                                                                                                       QC--Questioned Costs

                                                                                                       UN--Unsupported Costs

                                                                                                       Note: UN is part of QC





Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS                  31
                                                                                                             Amount of
        Report             Date of                                                                                       Type of
                                                                  Report Title                                Findings
        Number             Report                                                                                        Findings
                                                                                                              ($000s)
     1-520-06-102-R       09/14/06   Audit of the Fund Accountability Statements of the Better Health
                                     for Rural Women and Children Projects, Cooperative Agreement
                                     Nos. 520-98-A-00-00037-00 and 520-A-00-05-00084-00, Managed by
                                     Asociacion Pro-Bienestar de la Familia de Guatemala, for the Periods
                                     Ended March 31, 2005 and December 31, 2005
     1-527-06-103-R       09/18/06   Financial Statement Audit of Strategic Objective Agreement No. 527­        7          QC
                                     0404, Managed by the National Commission for Development and Life
                                                                                                                4          UN
                                     Without Drugs, for the Period from January 1, 2004 to December 31,
                                     2005
     1-527-06-104-R       09/29/06   Fund Accountability Statement and Commodity Status Report
                                     of the Food Monetization Program PL-480,Title II,“Program for
                                     Opportunities for Regional Economic Development to Reduce Social
                                     Exclusion” - PODERES, Managed by CARITAS del Peru, for the Period
                                     from January 1, 2005 to December 31, 2005 and Report on the
                                     Financial Review of the Microﬁnance Program as of December 31, 2005
     1-526-06-105-R       09/29/06   Financial Statement Audit of Programs No. 526-A-00-01-00074-00,            50         QC
                                     Civil Society and No. 526-A-00-01-00100-00, Health Decentralization
                                     and Community Participation, Managed by the Fundacion Comunitaria
                                     Centro de Informacion y Recursos Para el Desarrollo, for the Year
                                     Ended December 31, 2005
     1-526-06-106-R       09/29/06   Financial Statement Audit of Programs No. 526-A-00-04-00027-00,
                                     Paraguay Good Governance and Anti-Corruption Program, Managed
                                     by the Alter Vida Association, for the Period from October 1, 2004 to
                                     December 31, 2005
     4-674-06-007-N       04/28/06   Closeout Agreed-Upon-Procedures Review of USAID/South Africa’s            1,673       QC
                                     Resources Managed by the Desmond Tutu Educational Trust Under
                                                                                                               479         UN
                                     Grant No. 674-G-00-92-00038-00 and Sub-Award Under Contract No.
                                     674-C-00-98-00030-00 for the Period January 1, 2001 to May 31, 2003
     4-690-06-008-N       05/04/06   Closeout Audit of USAID/RCSA’s Resources Managed by the                   231         QC
                                     Southern African Development Community - Parliamentary Forum
                                                                                                               165         UN
                                     Under Limited Scope Grant Agreement No. 690-0304 for the Period
                                     September 17, 2002 to September 30, 2005
     4-674-06-017-R       04/19/06   Closeout Audit of Hope Worldwide South Africa Under USAID                  50         QC
                                     Cooperative Agreement No. 674-A-00-01-00042-00 for the Period
                                                                                                                37         UN
                                     January 1 to June 30, 2004
     4-696-06-018-R       04/20/06   Closeout Audit of the Ministry of Gender and Women in                      13         BU
                                     Development’s Women in Transition Initiatives Project Under USAID
                                     Award No. 968-5004.96 for the Period February 1, 2001 to September
                                     30, 2002
     4-612-06-019-R       06/27/06   Closeout Audit of the Creative Centre for Community Mobilization          832         QC
                                     under USAID Agreement No. 690-A-00-00-00012-00 for the Period
                                                                                                               716         UN
                                     April 1, 2003 to June 30, 2004.




     BU--Better Use of Funds
     QC--Questioned Costs
     UN--Unsupported Costs
     Note: UN is part of QC




32      SEMIANNUAL REPORT TO THE CONGRESS                                                                                Appendix A
                                                                                                         Amount of
      Report       Date of                                                                                                Type of
                                                            Report Title                                  Findings
      Number       Report                                                                                                 Findings
                                                                                                          ($000s)
  4-623-06-020-R   07/28/06   Audit of the Centre for African Family Studies Under USAID                      2             QC
                              Cooperative Agreement No. 623-A-00-02-00107-00 for the Period
                              January 1 to December 31, 2004
  4-663-06-021-R   08/03/06   Closeout Audit of the Federal Supreme Court Judicial Training Program
                              and Backlog Reduction Program under USAID Award No. 663-0007,
                              Project Implementation Letters 19 and 23, and Award No. 663-000-04
                              for the Period July 8, 2002 to May 31, 2004
  4-617-06-022-R   08/25/06   Audit of USAID Resources Managed by the Joint Clinical Research                563            QC
                              Center (JCRC) under Cooperative Agreement No. 617-A-00-04­
                                                                                                             155             UN
                              00003-00 for the Period December 4, 2003 to June 30, 2004
  5-493-06-019-R   05/05/06   Financial Audit of the Accelerated Economic Recovery in Asia Program,           53            QC
                              USAID Cooperative Agreement No. 442-A-00-99-00072-00, Managed
                              by the Kenan Foundation Asia, for the Period from October 1, 2003, to
                              September 30, 2004
  5-391-06-020-R   05/11/06   Financial Audit of the Program Titled “Improved Pakistani Family
                              Planning and Reproductive Health Services,” USAID/Pakistan
                              Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
                              Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar),
                              for the Period from November 7, 2003, to June 30, 2004
  5-386-06-021-R   05/12/06   Financial Audits of USAID Resources Managed by Voluntary Health                123            QC
                              Services for the Year Ended March 31, 2005
                                                                                                              1              UN
  5-367-06-022-R   05/15/06   Financial Audit of the Project Titled “Certiﬁcation and Sustainable             7             QC
                              Marketing of Non-Timber Forest Product,” USAID/Nepal Cooperative
                                                                                                              1              UN
                              Agreement No. 367-A-00-02-00209-00, Managed by the Asia Network
                              for Sustainable Agriculture and Bioresources, for the Period from
                              January 1, 2004 to December 31, 2004
  5-386-06-023-R   05/19/06   Financial Audits of USAID Funds Managed by the ICICI Bank Limited,
                              for the Period from April 1, 2004 to March 31, 2005
  5-497-06-024-R   05/22/06   Financial Audit of the Program Titled “Promoting Forest Certiﬁcation            7             QC
                              and Combating Illegal Logging in Indonesia,” USAID/Indonesia
                              Cooperative Agreement No. 497-A-00-02-00060-00, Managed by
                              Yayasan WWF Indonesia, for the Period from July 1, 2004 to June 30,
                              2005
  5-386-06-025-R   05/23/06   Financial Audit of the Financial Institution’s Reform and Expansion             1             QC
                              Project, USAID/India Grant Agreement No. 386-A-00-03-00175-00,
                              Managed by the National Institute of Urban Affairs, for the Period from
                              April 1, 2004 to March 31, 2005
  5-386-06-026-R   06/07/06   Financial Audit of the AVERT Project, USAID/India Project No. 386­              60            QC
                              0544, Managed by the AVERT Society, for the Period from April 1, 2004,
                                                                                                              5              UN
                              to March 31, 2005.
  5-388-06-027-R   06/09/06   Financial Audits of the National Integrated Population and Health             1,724           QC
                              (NIPH) Program, USAID/Bangladesh Cooperative Agreement No. 388­
                                                                                                            1,614            UN
                              A-00-97-00033-00, Managed by the Social Marketing Company for the
                              24-month period ended September 30, 2003.
                                                                                                        BU--Better Use of Funds

                                                                                                        QC--Questioned Costs

                                                                                                        UN--Unsupported Costs

                                                                                                        Note: UN is part of QC





Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS                   33
                                                                                                                Amount of
        Report             Date of                                                                                          Type of
                                                                   Report Title                                  Findings
        Number             Report                                                                                           Findings
                                                                                                                 ($000s)
     5-497-06-028-R       07/28/06   Closeout Audit of the Program Titled “Public Empowerment and                  3          QC
                                     Media Monitoring for Peaceful Election in 2004,” USAID/Indonesia
                                                                                                                   2          UN
                                     Cooperative Agreement No.AID 497-A-00-03-00029-00 for the Period
                                     from January 1, 2005 to September 30, 2005; Managed by the Yayasan
                                     Sains Estetika dan Teknologi
     5-493-06-029-R       08/18/06   Financial Audit of the Accelerating Economic Recovery in Asia (AERA)          20         QC
                                     Program, USAID Cooperative Agreement No. 442-A-00-99-00072-00.
                                     Managed by the Kenan Foundation Asia (Kenan). for the Period from
                                     October 1, 2004, to September 30, 2005
     5-386-06-030-R       09/08/06   Financial Audit of the Innovations in Family Planning Services Project,      2,375       QC
                                     USAID/India Project No. 386-0527, Managed by the State Innovations
                                     in Family Planning Services Project Agency, for the Period from April 1,
                                     2004 to March 31, 2005
     5-391-06-031-R       09/13/06   Financial Audit of the Rural Support Programmes Network -- USAID
                                     Grant Rewarding Innovations at the District Level,Agreement No. 391­
                                     A-00-03-01015-00, for the Nine Month Period Ended June 30, 2004
     5-391-06-032-R       09/26/06   Financial Audit of the Rural Support Programmes Network - USAID
                                     Grant Rewarding Innovations at the District Level,Agreement No. 391­
                                     A-00-03-01015-00, for the Period Ended June 30, 2005
     5-391-06-033-R       09/27/06   Financial Audit of the Developing Non-Bankable Territories for Financial
                                     Services Project, USAID/Pakistan Cooperative Agreement No. 391­
                                     A-00-03-01011-00, Managed by Khushhali Bank, for the Period from
                                     October 1, 2003, to December 31, 2004
     6-263-06-010-R       04/09/06   Financial Audit of USAID Resources Managed by the Egyptian                    1          QC
                                     Foundation for Enterprise Development, Project No. 263-A-00-03­
                                     00049-00, Fund Accountability Statement, for the Period from August 5,
                                     2003 through December 31, 2004
     6-294-06-011-N       06/05/06   Examination Procedures Related to Resources Provided to the
                                     Palestinian Authority Through the Ministry of Finance Under the
                                     Cash Transfer Grant Agreement Dated July 16, 2003,“USAID Activity
                                     Number 294-W-008,” for the Period From July 1, 2005, to September
                                     30, 2005 (Seventh Reporting Period)
     6-263-06-011-R       04/17/06   Financial Audit of USAID Resources Managed by the Ministry of Health          1          QC
                                     and Population Under Implementation Letter No. 2, USAID/Egypt’s
                                     Improving and Sustaining Population Program, Grant Agreement No.
                                     263-0287, Element No. 5, for the Period from April 1, 2003 to June 30,
                                     2004
     6-278-06-012-R       04/19/06   Financial Audit of USAID Resources Managed by the Royal Society for           51         QC
                                     the Conservation of Nature, Socio-Economic Development for Nature
                                     Conservation, Under Cooperative Agreement Number 278-A-00-00­
                                     00212-00, for the Year Ended May 31, 2004




     BU--Better Use of Funds
     QC--Questioned Costs
     UN--Unsupported Costs
     Note: UN is part of QC




34      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                       Amount of
     Report       Date of                                                                                               Type of
                                                          Report Title                                  Findings
     Number       Report                                                                                                Findings
                                                                                                        ($000s)
 6-263-06-013-R   07/30/06   Financial Audit of USAID Resources Managed and Expenditures
                             Incurred by Ministry of Health and Population/Epidemiology
                             Surveillance Unit/Infectious Disease Surveillance and Response, USAID/
                             Egypt Grant Agreement No. 263-0287.03, Implementation Letter No. 1
                             for the Period From October 1, 2003, to December 31, 2005
 6-263-06-014-R   08/17/06   Financial Audit of USAID Resources Managed and Expenditures
                             Incurred by Customs Reform Unit (CRU), USAID/Egypt Grant
                             Agreement No. 263-0284, Implementation Letter No. 3, for the Period
                             From April 1, 2003, to December 31, 2005
 6-294-06-015-N   07/20/06   Audit of USAID Resources Managed by Palestine for Credit and
                             Development, Sub-Grant Agreement Number SC/FA001, Under Save
                             the Children’s Emergency Financial Services Program in the West Bank
                             and Gaza, Cooperative Agreement with USAID No. 294-A-00-01­
                             00129-00 for the Period from January 1, 2002 to May 31, 2005
 6-263-06-015-R   08/27/06   Financial Audit of USAID Resources Managed and Expenditures
                             Incurred by Ministry of Higher Education/Supreme Council of
                             Universities/Health Workforce Development Project, USAID/Egypt
                             Grant Agreement No. 263-0287.06 Local Support, Implementation
                             Letter No. 2 for the Period From January 1, 2004, to December 31,
                             2005
 6-263-06-016-R   08/28/06   Close-out Financial Audit of USAID Resources Managed and                     982             QC
                             Expenditures Incurred by Horticultural Exporters Improvement
                             Association Under USAID/Egypt Grant Agreement No. 263-G-00-99­
                             00010-00 for the Period From January 1, 2004, to December 31, 2004
 6-263-06-016-N   08/07/06   Close-Out Financial Audit of USAID Resources Managed and                     409             QC
                             Expenditures Incurred by National Council for Women/Women
                                                                                                            3             UN
                             Business Development Center, USAID/Egypt Cooperative Agreement
                             No. 263-A-00-02-00016-00, for the Period from January 1, 2004 to
                             September 30, 2005
 6-294-06-017-N   09/13/06   Agreed-Upon Procedures on Selected Construction Contractors to
                             Evaluate USAID Resources Provided Under West Bank and Gaza’s
                             Emergency Roads Rehabilitation Project Phase I
 6-263-06-017-R   09/28/06   Financial Audit of USAID Resources Managed and Expenditures
                             Incurred by Financial Sector Modernization Program/Competitive
                             Environment for Investment/ Advisory and Monitoring Unit (AMU),
                             USAID/Egypt Grant Agreement No. 263-0289.02, Implementation
                             Letter No. 2 for the Period From April 1, 2005, to December 31, 2005
 6-263-06-018-R   09/28/06   Financial Close-Out Audit of USAID Resources Managed and
                             Expenditures Incurred by The Ministry of Health and Population
                             Healthy Mother/Healthy Child Project (HM/HC), USAID/Egypt Grant
                             Agreement No. 263-0287, Implementation Letter No. 4 for the Period
                             From July 1, 2004, to December 31, 2005




                                                                                                      BU--Better Use of Funds

                                                                                                      QC--Questioned Costs

                                                                                                      UN--Unsupported Costs

                                                                                                      Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS                   35
                                                                                                              Amount of
         Report             Date of                                                                                       Type of
                                                                    Report Title                               Findings
         Number             Report                                                                                        Findings
                                                                                                               ($000s)
     6-294-06-019-N        09/28/06   Audit of Community Development Group Subcontract Costs Under               26         QC
                                      CH2MHILL’s Integrated Water Resources (Phase III) Contract With
                                      USAID, Contract No. 294-C-00-00-00063-00, for the Period From
                                      September 25, 2001, to September 30, 2004
     7-685-06-001-N        08/31/06   Audit of USAID Resources Managed by the Agency for the
                                      Development of Social Marketing Under the Decentralized Quality
                                      Health Services Program in Senegal (No. 685-0309-00) for the Period
                                      September 3, 2003 to December 31, 2004
     7-624-06-002-N        09/29/06   Consolidated Audit of USAID and Other Donor Resources Granted to           9          QC
                                      the Permanent Interstate Committee for Drought Control in the Sahel
                                                                                                                 9          UN
                                      for the Period January 1, 2004 to December 31, 2004
     8-121-06-018-R        04/26/06   Recipient-Contracted Audit of International Charitable Organization        1          QC
                                      “Center for Ukrainian Reform Education”, Grant Agreement #121-A­
                                      00-02-00002-00, for the Year Ending December 31, 2004.
     8-118-06-019-R        04/10/06   Audit of IPO Junior Achievement Russia for USAID Grant No. 118-G­
                                      00-98-00151-00 for the Year Ending December 31, 2004
     8-000-06-020-R        04/25/06   Audit of Tearfund for Various Grants for Programs in Burundi, Sierra       34         QC
                                      Leone, and Sudan, for the Years Ended March 31, 2004 and March 31,
                                      2005.
     8-000-06-021-R        04/24/06   Audit of the Veterinaries San Frontieres for USAID Grant Nos.AOT-G­
                                      00-178-00 and DFD-G-00-04-00071-00 for the Year Ending December
                                      31, 2004
     8-119-06-022-R        04/25/06   Audit of Tajik Branch of Open Society Institute Assistance Foundation
                                      Under Three USAID Grants and One Cooperative Agreement, for the
                                      Year Ended December 31, 2004
     8-115-06-023-R        04/28/06   Audit of Soros Foundation Kazakhstan for USAID Award Nos. 115-G­
                                      00-00-00001, 115-A-00-02-00002, and 122-A-00-02-00042, for the Year
                                      Ending December 31, 2004
     8-194-06-024-R        04/28/06   Audit of Foundation Open Society Institute Budapest for USAID
                                      Cooperative Agreement No. 194-A-00-03-00106-00, for the Year
                                      Ending December 31, 2004
     8-000-06-025-R        05/22/06   Audit of Action Contre La Faim, Paris, France, Under Multiple USAID        20         QC
                                      Agreements, for the Year Ended December 31, 2004
                                                                                                                 20         UN
     8-000-06-026-R        05/22/06   Audit of Premiere Urgence, La Garenne-Colombes, France, Under             106         QC
                                      Multiple USAID Agreements, for the Years Ended June 30, 2003 and
                                                                                                                 1          UN
                                      June 30, 2004

     8-000-06-027-R        05/22/06   Audit of the Tuberculosis Coalition for Technical Assistance, Under       1,756       QC
                                      USAID Award No. HRN-A-00-00-00018-00, for the Year Ended
                                                                                                                1,738       UN
                                      September 30, 2003




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





36      SEMIANNUAL REPORT TO THE CONGRESS                                                                                 Appendix A
                                                                                                          Amount of
     Report       Date of                                                                                                  Type of
                                                           Report Title                                    Findings
     Number       Report                                                                                                   Findings
                                                                                                           ($000s)
 8-118-06-028-R   05/22/06   Audit of the Institute for the Economy in Transition for USAID                   26             QC
                             Cooperative Agreement No. 118-A-00-00-00130-00, for the Year
                             Ending December 31, 2002
 8-000-06-029-R   05/24/06   Audit of Association Handicap International for USAID Award Nos.
                             492-G-00-04-0008-00, 685-A-00-04-00022-00 and Sub-award No. 03­
                             OMEGA-1003, for the Year Ended December 31, 2004
 8-000-06-030-R   05/26/06   Merlin for Eight USAID Awards, for the Year Ended December 31, 2004
 8-111-06-031-R   06/08/06   Audit of “Mission Armenia” NGO Support for Soup Kitchens Project
                             for USAID Cooperative Agreement No. 111-A-00-04-00010-00, for the
                             Period February 1, 2004 through December 31, 2004
 8-000-06-032-R   06/21/06   Audit of Medair, Under Multiple USAID Agreements Covering Various                 5             QC
                             Periods Ending in 2004
 8-000-06-033-R   08/04/06   Audit of Premiere Urgence, La Garenne-Colombes, France, Under                    18             QC
                             Multiple USAID Agreements for the Year Ended June 30, 2005

 8-000-06-034-R   08/09/06   Audit of Save the Children Fund UK, Under 63 USAID Agreements, for
                             the Year Ended March 31, 2005
 8-000-06-035-R   08/15/06   Audit of Foundation Hirondelle, Under Two USAID Awards, for the
                             Period January 1, 2005 through December 31, 2005
 8-118-06-036-R   09/01/06   Audit of the Inter-Regional Public Foundation,“Siberian Civic Initiatives
                             Support Center” for USAID Cooperative Agreement No. 118-A-00-03­
                             00127, for the Period Ended December 31, 2005
 8-183-06-037-R   09/26/06   Audit of Partners Bulgaria Foundation Under USAID Grant Award No.
                             183-A-00-00-00117-00, for the Year Ended December 31, 2004

                                          --LOCAL CURRENCY TRUST FUND-­

 5-497-06-006-N   08/10/06   Financial Audits of USAID/Indonesia’s Rupiah Trust Fund for Fiscal Years
                             Ended September 30, 2004 and 2005

                                             --U.S.-BASED CONTRACTORS-­

 0-000-06-027-D   04/04/06   Fintrac, Inc., Report on Audit of Fiscal Year 2003 Incurred Costs
 0-000-06-028-D   05/01/06   Inter-American Institute of Human Rights, Report on Audit of Post
                             Award Accounting System
 0-000-06-029-D   04/04/06   Louis Berger Group Inc. - International, Report on Audit of Billing
                             System
 0-000-06-030-D   05/01/06   Louis Berger Group, Inc., Report on Accounting System Review
 0-000-06-031-D   04/04/06   Chemonics International, Inc., Report on Audit of Fiscal Year 2000
                             Incurred Costs




                                                                                                         BU--Better Use of Funds

                                                                                                         QC--Questioned Costs

                                                                                                         UN--Unsupported Costs

                                                                                                         Note: UN is part of QC





Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS                   37
                                                                                                               Amount of
        Report             Date of                                                                                         Type of
                                                                   Report Title                                 Findings
        Number             Report                                                                                          Findings
                                                                                                                ($000s)
     0-000-06-032-D       04/04/06   Chemonics International, Inc., Report on Audit of Fiscal Year 2001
                                     Incurred Costs
     0-000-06-033-D       04/04/06   Chemonics International, Inc., Report on Audit of FY 2002 Incurred
                                     Costs
     0-000-06-034-D       04/04/06   Checchi and Company Consulting, Inc., Report on Audit of FY 2004
                                     Incurred Costs
     0-000-06-035-D       04/04/06   Casals & Associates, Report on Audit of Fiscal Years 2002 and 2003
     0-000-06-036-D       04/04/06   Metcalf and Eddy, Inc., Report on Audit of Compliance with CAS 404
     0-000-06-037-D       05/01/06   Chemonics International, Inc., Report on Adequacy of Initial Disclosure
                                     Statement
     0-000-06-038-D       05/01/06   Aguirre International, Report on Evaluation of Calendar Years 2000,
                                     2001, 2002, and 2003 Incurred Costs
     0-000-06-039-D       05/01/06   Sigma One Corporation, Report on Audit of FY 2005 Labor Floor
                                     Check Evaluation
     0-000-06-040-D       05/09/06   SSA Marine, Inc., Report on Agreed-Upon Procedures to Support Civil
                                     Action No. 05-490C
     0-000-06-041-D       05/01/06   Metcalf & Eddy, Report on Floor Checks and Timekeeping Evaluation
                                     for CY 2006
     0-000-06-042-D       05/15/06   Burns and Roe Enterprises Incorporated, Report on Agreed-Upon                32         QC
                                     Procedures USAID 1997 Reconciliation Booked to Billed Cost
                                     Contract No. CCN-0002-C-00-3153-00 CPFF Contract No. CCN­
                                     0002-Q-00-3154-00 T&M
     0-000-06-043-D       05/22/06   BHM International, Inc., Report on Incurred Costs for Fiscal Year Ended      55         QC
                                     September 30, 2001
     0-000-06-044-D       05/22/06   Nexant, Inc., Report on Noncompliance with FAR 52.230-2,
                                     Cost Accounting Standards Clause and CAS 3.202-3, Disclosure
                                     Requirements - Amendments and Revisions
     0-000-06-045-D       07/17/06   BHM International, Inc., Supplemental Report on Incurred Cost for           445         QC
                                     Fiscal Year Ended September 30, 1999
     0-000-06-046-D       06/05/06   BearingPoint, Inc.,Audit Report of Control Environment and Overall
                                     Accounting Controls
     0-000-06-047-D       06/05/06   PA Government Services, Inc., Report on Adequacy and Compliance of
                                     Revised Disclosure Statement dated January 1, 2001
     0-000-06-048-D       06/05/06   Metcalf & Eddy, Inc., Report on Audit of CAS 408 Compliance Audit
     0-000-06-049-D       06/05/06   Metcalf & Eddy, Inc., Report on Audit of Compliance with CAS 409,
                                     Depreciation of Tangible Capital Assets
     0-000-06-051-D       07/17/06   IBM Global Services, Business Consulting Services - Federal Report on       5,841       QC
                                     Audit of Calendar Year 2003 Incurred Cost Audit



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





38      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                         Amount of
     Report       Date of                                                                                                 Type of
                                                           Report Title                                   Findings
     Number       Report                                                                                                  Findings
                                                                                                          ($000s)
 0-000-06-052-D   07/17/06   The Mitchell Group, Incorporated, Report on Incurred Cost Proposal
                             for Fiscal Year Ended December 31, 2002
 0-000-06-053-D   07/17/06   Sigma One Corporation, Report on Audit of Fiscal Year 2002 Incurred
                             Costs
 0-000-06-054-D   07/17/06   LTG Associates, Inc., Report on Ofﬁce Lease Costs Associated with
                             Fiscal Years 2001 and 2002
 0-000-06-055-D   09/08/06   Bechtel Group, Inc., Bechtel Systems and Infrastructure, Inc. (Functions
                             & Services), Report on Audit of Incurred Costs for Calendar Year 2003
 0-000-06-056-D   09/08/06   Report on Audit of Fiscal Year 2003 Final Incurred Cost, Parsons
                             Infrastructure & Technology Group, Inc., Parsons Project Services, Inc.
                             and Parsons Federal Services, Inc.
 0-000-06-057-D   09/08/06   International Resources Group Ltd., Report on Audit of Incurred Costs
                             for Fiscal Years Ended December 31, 2001 through December 31, 2002
 0-000-06-058-D   09/08/06   Shorebank Advisory Services, Report on Audit of Fiscal Year 2001
                             Incurred Costs
 0-000-06-059-D   09/08/06   Sigma One Corporation, Report on Audit of Fiscal Year 2003 Incurred
                             Cost
 0-000-06-060-D   09/08/06   The Mitchell Group, Incorporated, Report on Incurred Cost Proposal              32             QC
                             for Fiscal Year Ended December 31, 2001
 0-000-06-061-D   09/26/06   Louis Berger Group, Inc., Report on Adequacy of Initial Disclosure
                             Statement Dated July 1, 2006, Revision 1 Dated August 17, 2006 and
                             Revision 2 Dated August 24, 2006
 0-000-06-062-D   09/26/06   Louis Berger Group, Inc., Report on Adequacy of Nation Building Initial
                             Disclosure Statement Dated July 1, 2006, Revision 1 Dated August 17,
                             2006 and Revision 2 Dated August 24, 2006
 0-000-06-063-D   09/26/06   Boston Institute for Developing Economies, Report on Audit of
                             Incurred Costs for Fiscal Years Ended November 30, 2001 through
                             November 30, 2003
 0-000-06-064-D   09/26/06   Planning & Development Collaborative, Inc., Report on Audit of
                             Incurred Costs for Fiscal Years January 1, 2002 through December 31,
                             2003
 0-000-06-065-D   09/26/06   Price Waterhouse, LLP, Report on Audit of Direct Costs of Price               68,488           QC
                             Waterhouse, LLP, Fiscal Years Ended June 30, 1995 and 1996
 0-000-06-066-D   09/26/06   Development Alternatives, Inc.,Audit Report on Costs Incurred and                3             QC
                             Billed Under USAID Contract No. 511-C-00-99-00114-00 for the
                             Period of June 1, 1999 to July 15, 2005
 0-000-06-068-D   09/29/06   Nexant, Inc., Report on Audit of Nexant, Inc.’s Calendar Year (CY) 2002        277             QC
                             and CY 2003 Incurred Costs
 0-000-06-069-D   09/29/06   Shorebank Advisory Services, Report on Examination of Fiscal Year
                             2002 Incurred Costs


                                                                                                        BU--Better Use of Funds

                                                                                                        QC--Questioned Costs

                                                                                                        UN--Unsupported Costs

                                                                                                        Note: UN is part of QC





Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS                  39
                                                                                                                Amount of
        Report             Date of                                                                                          Type of
                                                                   Report Title                                  Findings
        Number             Report                                                                                           Findings
                                                                                                                 ($000s)
     0-000-06-070-D       09/29/06   Associates in Rural Development, Inc., Revised Report on Audit of
                                     Associates in Rural Development Fiscal Year 2003 Incurred Costs
     5-306-06-003-D       08/02/06   Audit of Costs Incurred in the United States by the Louis Berger             528         QC
                                     Group, Inc. to Implement the Rehabilitation of Economic Facilities and
                                                                                                                  421         UN
                                     Services Program, USAID/Afghanistan Contract No. 306-C-00-02­
                                     00500-00, for the Period from April 1, 2005 to December 31, 2005
     5-306-06-004-D       08/10/06   Audit of Treatment of Speciﬁed Costs Incurred by Camp, Dresser &             222         QC
                                     McKee Constructors, Inc. Under the Afghanistan Water and Sanitation
                                     Program, USAID/Afghanistan Contract No. 306-C-00-04-00568-00, for
                                     the Period from September 30, 2004 to February 25, 2006
     5-306-06-005-N       06/28/06   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc.
                                     to Implement the Rehabilitation of Economic Facilities and Services
                                     Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for
                                     the Period from January 1, 2006, to March 31, 2006.
     6-294-06-013-N       06/07/06   Audit of the Fund Accountability Statement of USAID Resources                 36         QC
                                     Managed by Nathan-MSI Group and Implemented by Development
                                     Alternatives, Inc. Under Contract Award No. PCE-I-00-98-00016-00
                                     Palestinian Information and Communications Technology Incubator for
                                     the Period from September 30, 2003, to September 29, 2004.
     6-294-06-014-N       07/12/06   Audit of the Fund Accountability Statement of USAID Resources                1,327       QC
                                     Managed by CH2M HILL Under Award No. 294-C-00-00-00063-00
                                     “Water Resources Phase III” for the Period from June 21, 2000 to
                                     September 30, 2004
     E-267-06-007-D       04/23/06   Audit of Costs Incurred by Development Alternatives, Inc. Under               7          QC
                                     Contract No. RAN-C-00-04-00002-00 from October 15, 2004 through
                                     June 30, 2005
     E-267-06-010-D       06/15/06   Audit of Costs Billed by Research Triangle Institute Under Contract          8,716       QC
                                     No. EDG-C-00-03-00010-00 for the Period of March 26, 2004 through
                                                                                                                  8,716       UN
                                     September 30, 2004
     E-267-06-011-D       06/23/06   Audit of Direct Costs Billed by Research Triangle Institute Under            8,141       QC
                                     Contract No. EDG-C-00-03-00010-00 from October 1, 2004 to July 31,
                                                                                                                  7,972       UN
                                     2005
     E-267-06-012-D       07/02/06   Audit of Invoices Submitted on Kroll Government Services Inc. Under
                                     Subcontract No.AID-2004-T-00043-000-0021 from February 2004 to
                                     September 2004
     E-267-06-013-D       07/03/06   Audit of Costs Incurred by Creative Associates International, Inc. under      1          QC
                                     Contract No. EPP-C-00-04-00004-00 from July 1, 2004 through June 30,
                                                                                                                   1          UN
                                     2005
     E-267-06-014-D       07/06/06   Audit of Costs Incurred by BearingPoint, Inc. under Contract No. 267­        1,695       QC
                                     C-00-04-00405 from September 4, 2004 to July 31, 2005
                                                                                                                  1,068       UN




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





40      SEMIANNUAL REPORT TO THE CONGRESS                                                                                   Appendix A
                                                                                                           Amount of
     Report       Date of                                                                                                   Type of
                                                             Report Title                                   Findings
     Number       Report                                                                                                    Findings
                                                                                                            ($000s)
 E-267-06-015-D   07/27/06   Audit of Costs Incurred by International Business & Technical                      4             QC
                             Consultants, Inc. Under Contract No. 267-C-0500508-00 for the
                             Period of May 31, 2005 through December 31, 2005
 E-267-06-016-D   08/14/06   Audit of Costs Incurred by Crown Agents Consultancy, Inc. under                   48             QC
                             Subcontract No. 1100-003 with International Resources Group, Inc.
                             under Contract No. EMT-C-00-03-00007-00 and Contract No. 517­
                             C-00-04-00106-00 for the Period of November 1, 2004 through
                             December 31, 2004
 E-267-06-017-D   09/18/06   Audit of Direct Costs Incurred by Bechtel National, Inc. Under Iraq              322             QC
                             Infrastructure Reconstruction Phase I and II Contracts No. EEE-C­
                                                                                                              115             UN
                             00-03-00018-00 and No. SPU-C-00-04-00001-00 for the Period of
                             October 1, 2004 Through September 30, 2005

                                                  --U.S.-BASED GRANTEES-­

 0-000-06-008-T   05/01/06   Audit Report for Adventist Development and Relief Agency
                             International (ADRA), Fiscal Year Ended December 31, 2003
 0-000-06-009-T   05/01/06   Audit Report for Adventist Development and Relief Agency
                             International, Fiscal Year Ended December 31, 2004
 0-000-06-010-T   05/09/06   Catholic Relief Services,A-133 Audit Report for Fiscal Year Ending
                             September 30, 2004
 0-000-06-011-T   05/01/06   Review of Audit Report of American Near-East Refugee Aid, Fiscal Year
                             Ended May 31, 2003
 0-000-06-012-T   05/01/06   Review of Audit Report of America’s Development Foundation for
                             Fiscal Year Ending December 31, 2003
 0-000-06-013-T   05/05/06   Initial Review of Audit of International Center for Not-for Proﬁt Law,
                             Inc., for the Fiscal Year Ended December 31, 2001
 0-000-06-014-T   05/08/06   Review of Audit of American Bar Association Fund for Justice and
                             Education, for Fiscal Year Ending August 31, 2003
 0-000-06-015-T   05/09/06   Initial Review of Audit of Public Health Institute, for the Fiscal Year
                             Ended December 31, 2003
 0-000-06-016-T   05/08/06   Initial Review of Audit Report for Project HOPE--The People-to-
                             People Foundation, Inc., for the Fiscal Year Ended June 30, 2003
 0-000-06-017-T   05/15/06   Initial Review of Audit of Academy for Educational Development, for
                             the Fiscal Year Ended December 31, 2003
 0-000-06-018-T   05/15/06   Initial Review of Audit of Accion International, for the Fiscal Year Ended
                             December 31, 2003
 0-000-06-019-T   05/15/06   Initial Review of Audit of FINCA International, Inc., for Fiscal Year
                             Ending August 31, 2003


                                                                                                          BU--Better Use of Funds

                                                                                                          QC--Questioned Costs

                                                                                                          UN--Unsupported Costs

                                                                                                          Note: UN is part of QC





Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS                  41
                                                                                                              Amount of
         Report            Date of                                                                                        Type of
                                                                    Report Title                               Findings
         Number            Report                                                                                         Findings
                                                                                                               ($000s)
     0-000-06-020-T       05/17/06   Initial Review of the Audit of American Ort, Inc., for the Fiscal Year
                                     Ended December 31, 2003
     0-000-06-050-D       07/17/06   Michigan State University, Report on Special Incurred Costs for             13         QC
                                     Cooperative Agreement GDG-A-00-01-00001-00 and Related
                                     Associate Awards
     0-000-06-067-D       09/30/06   Population Services International, Review of Incurred and Billed            6          QC
                                     Costs from April 21, 2004 to September 30, 2005 Under Cooperative
                                     Agreement 306-A-00-04-00508-00
     4-612-06-009-N       06/29/06   Agreed-Upon Procedures Review of USAID/Malawi’s Resources                  309         QC
                                     Managed by the International Fertilizer Development Centre Under
                                                                                                                 96         UN
                                     Grant No. 690-G-00-02-00178-00 for the Period June 18, 2002 to June
                                     30, 2005
     6-294-06-010-N       04/03/06   Audit of the Fund Accountability Statement of USAID Resources
                                     Managed by Mercy Corps International Under Cooperative Agreement
                                     No. 294-A-00-02-00225-00 “Job Opportunities through Basic Services
                                     (JOBS) Project” for the Period from July 31, 2002 to January 31, 2005
     6-294-06-012-N       06/05/06   Audit of the Fund Accountability Statement of USAID Resources
                                     Managed by World Vision, Inc. Under Cooperative Agreement No. 294­
                                     A-00-02-00226-00 “Job Opportunities Through Basic Services (JOBS)
                                     Project” for the Period From October 1, 2004, to September 30, 2005.

     6-294-06-018-N       09/21/06   Audit of the Fund Accountability Statement of USAID Resources               51         QC
                                     Managed by Catholic Relief Services Jerusalem,West Bank, and Gaza,
                                     Under USAID Award Nos. 294-A-00-02-00221-00 and 294-A-00-04­
                                     00217-00, for the Period from October 1, 2004 to September 30, 2005
     E-267-06-008-D       05/18/06   Audit of Costs Incurred by International Relief and Development, Inc.      1,018       QC
                                     Under Cooperative Agreement No.AFP-A-00-03-00002-00 from May
                                                                                                                1,018       UN
                                     16, 2003 to July 31, 2004
     E-267-06-009-D       06/06/06   Audit of Costs Incurred by Cooperative Housing Federation                   59         QC
                                     International Under Cooperative Agreement No.AFP-A-00-03-00004­
                                                                                                                 15         UN
                                     00 from August 1, 2004 to July 31, 2005




     BU--Better Use of Funds
     QC--Questioned Costs
     UN--Unsupported Costs
     Note: UN is part of QC




42      SEMIANNUAL REPORT TO THE CONGRESS                                                                                 Appendix A
                   USAID MISCELLANEOUS REPORTS ISSUED

                     April 1, 2006 through September 30, 2006

                                                                                                         Amount of
     Report       Date of                                                                                                 Type of
                                                           Report Title                                   Findings
     Number       Report                                                                                                  Findings
                                                                                                          ($000s)

                                            --QUALITY CONTROL REVIEWS-­

 0-000-06-004-Q   07/17/06   Quality Control Review of the Audit Report and Audit Documentation
                             for the OMB Circular A-133 Audit Conducted by Ernst & Young of the
                             American Bar Association Fund for Justice and Education for the Fiscal
                             Year Ended August 31, 2003
 0-000-06-005-Q   08/24/06   Quality Control Review of the Audit Report and Audit Documentation
                             for the OMB Circular A-133 Audit Conducted by McGladrey & Pullen,
                             LLP, of Catholic Relief Services for the Fiscal Year Ended September 30,
                             2002
 0-000-06-006-Q   09/26/06   Quality Control Review of the Audit Report and Audit Documentation
                             for the OMB Circular A-133 Audit Conducted by Watkins, Meegan,
                             Drury & Company, LLC, of America’s Development Foundation for the
                             Fiscal Year Ended December 31, 2003
 1-521-06-004-Q   06/06/06   Quality Control Review of Audit Report and Work Papers Related to
                             Audit of the Forum 2000 Project Under the Recovery of the Economy
                             in Transition Program, USAID/Haiti Project No. 521-A-00-99-00074-00,
                             Managed by Centre Pour la Libre Enterprise et la Democratie for the
                             Period from October 1, 2002 to September 30, 2003
 1-517-06-005-Q   07/25/06   Quality Control Review of Audit Report and Work Papers Related to
                             the Programs Improving Living Conditions in the Haitian - Dominican
                             Border Agreement No. 517-A-00-03-00118-00 for the Period from July
                             1, 2004 to July 31, 2005, and for Mitigation of the Forest Fires in the
                             High and Medium Areas Located in the Dominican Republic’s Central
                             Southwest Region Agreement No. 517-G-00-05-00104-00 for the
                             Period from April 6, 2005 to July 31, 2005, Managed by Fundacion Para
                             El Desarrollo Comunitario, Inc.
 1-517-06-006-Q   08/31/06   Quality Control Review of Audit Report and Work Papers Related
                             to the Audit of Reproductive Health Service Program,Agreement
                             No. 517-G-00-01-00114-00, Managed by Asociacion Dominicana Pro-
                             Bienestar de la Familia, Inc., for the Year Ended December 31, 2004
 1-517-06-007-Q   08/31/06   Quality Control Review of Audit Report and Work Papers Related
                             to Audit of the Fund Accountability Statement for the Consolidation
                             and Expansion of Opportunities for Citizen Participation and Political
                             Culture Project No. 517-A-00-03-00105-00, Managed by Participation
                             Ciudadana, for the Period from September 1, 2003 to August 31, 2004




                                                                                                        BU--Better Use of Funds

                                                                                                        QC--Questioned Costs

                                                                                                        UN--Unsupported Costs

                                                                                                        Note: UN is part of QC





Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS                   43
                                                                                                               Amount of
        Report             Date of                                                                                         Type of
                                                                   Report Title                                 Findings
        Number             Report                                                                                          Findings
                                                                                                                ($000s)
     4-674-06-006-Q       04/25/06   Quality Control Review of the Recipient-Contracted Audit of the
                                     Nelson Mandela Children’s Fund Under Grant Agreement No. 674-G­
                                     00-00-00071-00 for the Period April 1, 2003 to November 30, 2004
                                     Performed by Henk Prinsloo & Partners (Pretoria, South Africa)
     4-663-06-007-Q       08/03/06   Quality Control Review of the Closeout Audit of the Federal Supreme
                                     Court Judicial Training Program and Backlog Reduction Program Under
                                     USAID Award No. 663-0007, Project Implementation Letters 19 and
                                     23, and Award No. 663-000-04 for the Period July 8, 2002 to May 31,
                                     2004
     5-386-06-001-Q       09/22/06   Quality Control Review of the Audit Report and Audit Documentation
                                     for the Financial Audit Conducted by S.R. Batliboi & Associates, India,
                                     of the AIDS Prevention and Control Project, USAID/India Project No.
                                     386-0525, managed by the Voluntary Health Services (VHS), for the
                                     year ended March 31, 2005
     5-386-06-002-Q       09/22/06   Quality Control Review of the Audit Report and Audit Documentation
                                     for the Financial Audit Conducted by Thakur,Vaidyanath Aiyar & Co., of
                                     the Energy Conservation and Commercialization (ECO) Programme,
                                     USAID/India Project No. 386-0542, Managed by the ICICI Bank Limited,
                                     for the Year Ended March 31, 2005
     5-391-06-003-Q       09/26/06   Quality Control Review of the Audit Report and Audit Documentation
                                     for the Financial Audit Conducted by Ford Rhodes Sidat Hyder & Co.,
                                     Pakistan, of the Program titled “Improved Pakistani Family Planning
                                     and Reproductive Health Services”, USAID/Pakistan Cooperative
                                     Agreement No. 391-A-00-03-01016-00, Managed by the Greenstar
                                     Social Marketing Pakistan (Guarantee) Limited (Greenstar), for the
                                     Period from November 7, 2003, to June 30, 2004
     6-294-06-001-Q       07/20/06   Quality Control Review of Audit Covering USAID Resources Managed
                                     by Financial Markets International, Inc. Under Contract No. PCE-I-00­
                                     99-00010-00, Capital Markets Development Initiative Program, for the
                                     Period from July 5, 2000, to September 30, 2002
     6-294-06-002-Q       08/17/06   Quality Control Review of Audit of USAID Resources Managed by
                                     International Youth Foundation Under Award No. 294-A-00-00-00070­
                                     00 “International Technology for Youth in Rural Communities in the
                                     West Bank and Gaza” in Conjunction With Welfare Association For
                                     The Period From October 1, 2001,Through September 30, 2002
     6-294-06-003-Q       08/28/06   Quality Control Review on the Audit of USAID Resources
                                     Managed by MA’AN Development Center Subgrant Under World
                                     Vision Cooperative Agreement No. 294-A-00-02-00226-00,“Job
                                     Opportunities Through Basic Services Project” for the Period from
                                     September 1, 2002 to August 31, 2005
     6-294-06-004-Q       08/29/06   Quality Control Review of the Audit of USAID Resources Managed by
                                     Associates in Rural Development Under Contract Number 294-C-00­
                                     99-00156-00, for the Period from October 1, 2001 to September 30,
                                     2002

     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





44      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                        Amount of
     Report        Date of                                                                                               Type of
                                                            Report Title                                 Findings
     Number        Report                                                                                                Findings
                                                                                                         ($000s)
 7-688-06-001-Q    07/07/06   Quality Control Review of GMI-Audit Regarding the Audit of Local
                              Currency Expenses Incurred by the Administrative and Financial
                              Directorate of the Malian Ministry of Health under the Youth Strategic
                              Objective for the Period January 1, 2001 to September 30, 2003-­
                              Project No. 688-0272
 8-118-06-001-Q    06/22/06   Quality Control Review of GMI-Audit Regarding the Audit of General
                              Financial Statements of ANO Moscow School of Political Studies for
                              2003-2004 Relating to USAID Agreement No. 118-A-00-03-00090 for
                              the Period August 1, 2003 through December 31, 2004

                                                           --OTHER-­

  4-650-06-002-S   09/22/06   Memorandum on Fieldwork Conducted at the USAID/Sudan Field
                              Ofﬁce in Support of the Fiscal Year 2006 USAID Financial Statement
                              Audit
  6-294-06-001-S   06/19/06   Quick Response Review of Vetting Procedures at USAID/West Bank
                              and Gaza.
  6-294-06-002-S   08/15/06   Information on Status and Results of the First 60 Financial Audits
                              of USAID/West Bank and Gaza Activities in Accordance with the
                              Statutory Requirements of the Appropriations Acts of 2003, 2004,
                              2005, and 2006




                                                                                                       BU--Better Use of Funds

                                                                                                       QC--Questioned Costs

                                                                                                       UN--Unsupported Costs

                                                                                                       Note: UN is part of QC





Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS                 45
                       USAID PERFORMANCE AUDIT REPORTS ISSUED

                           April 1, 2006 through September 30, 2006

                                                                                                               Amount of
         Report             Date of                                                                                        Type of
                                                                   Report Title                                 Findings
         Number             Report                                                                                         Findings
                                                                                                                ($000s)


                                                     --ECONOMY AND EFFICIENCY--


     1-532-06-004-P        04/28/06   Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation              64         QC
                                      Activities
                                                                                                                 142         BU
     1-504-06-005-P        05/25/06   Audit of USAID/Guyana’s Progress in Implementing the President’s
                                      Emergency Plan for AIDS Relief

     1-523-06-006-P        06/02/06   Audit of the Completeness of USAID/Mexico’s Work Plan Deliverables

     1-520-06-007-P        08/21/06   Audit of Compliance with the Tiahrt Amendment Under USAID/                  66         QC
                                      Guatemala’s Cooperative Agreements with the Family Welfare
                                      Association of Guatemala
     4-690-06-007-P        05/18/06   Follow-up Audit of USAID/Regional Center for Southern Africa’s
                                      Contractor Performance Evaluation Program

     4-623-06-008-P        05/22/06   Audit of USAID/REDSO/ESA’s Compliance with Financial Audit
                                      Requirements Regarding Foreign Recipients
     4-663-06-009-P        05/31/06   Audit of USAID/Ethiopia’s Compliance with Financial Audit
                                      Requirements Regarding Foreign Recipients
     4-621-06-010-P        07/31/06   Audit of USAID/Tanzania’s Compliance with Financial Audit
                                      Requirements Regarding Foreign Recipients

     4-615-06-011-P        07/31/06   Audit of USAID/Kenya’s Compliance with Financial Audit Requirements
                                      Regarding Foreign Recipients
     4-612-06-012-P        07/31/06   Audit of USAID/Malawi’s Compliance with Financial Audit
                                      Requirements Regarding Foreign Recipients
     4-674-06-013-P        08/11/06   Audit of USAID/South Africa’s Progress in Implementing the President’s
                                      Emergency Plan for AIDS Relief
     4-623-06-014-P        09/21/06   Audit of USAID Activities in Limited-Presence Countries in Eastern
                                      Africa
     4-656-06-015-P        09/22/06   Audit of USAID/Mozambique’s Compliance with Financial Audit
                                      Requirements Regarding Foreign Recipients

     5-440-06-004-P        05/11/06   Audit of USAID Regional Development Mission/Asia’s Development
                                      Credit Authority



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





46      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                      Amount of
     Report        Date of                                                                                             Type of
                                                            Report Title                               Findings
     Number        Report                                                                                              Findings
                                                                                                       ($000s)
  5-306-06-005-P   05/18/06   Audit of USAID/Afghanistan’s Reconstruction of the Kandahar-Herat
                              Highway Under the Rehabilitation of Economic Facilities and Services
                              Program
  5-386-06-006-P   05/24/06   Audit of USAID/India’s Security Controls Over Its Financial
                              Management and General Support Systems

  5-306-06-007-P   08/16/06   Audit of USAID/Afghanistan’s Rural Expansion of Afghanistan’s
                              Community-based Healthcare (REACH) Program

  5-306-06-008-P   08/18/06   Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction
                              Activities

  5-497-06-009-P   09/15/06   Audit of USAID/Indonesia’s Tsunami Recovery and Reconstruction
                              Program Activities Implemented by Development Alternatives, Inc.

  6-263-06-001-P   09/28/06   Audit of USAID/Egypt’s Family Planning Activities

  7-620-06-003-P   07/31/06   Audit of USAID/Nigeria’s Cashiering Operations

  7-620-06-004-P   08/31/06   Audit of USAID/Nigeria’s Progress in Implementing the President’s
                              Emergency Plan for AIDS Relief

  8-118-06-002-P   05/22/06   Audit of USAID/Russia’s Development Credit Authority

  8-121-06-003-P   07/10/06   Follow-up Audit of USAID Mission for Ukraine, Belarus and Moldova’s
                              Management of U.S. Personal Services Contractors

  8-121-06-004-P   07/10/06   Audit of USAID/Ukraine’s Local Governance Program

  9-000-06-005-P   04/27/06   Follow-up Audit of USAID’s Cargo Preference Reimbursements Under
                              Section 901d of the Merchant Marine Act of 1936

  9-621-06-006-P   05/04/06   Audit of USAID/Tanzania’s Progress in Implementing the President’s
                              Emergency Plan for AIDS Relief

  9-000-06-007-P   05/11/06   Audit of USAID’s Procurement Evaluation Program
  9-000-06-008-P   05/17/06   Audit of Scopes of Work for Field Support Task Orders Issued Under
                              USAID/Washington Indeﬁnite Quantity Contracts

  9-000-06-009-P   09/25/06   Audit of USAID’s Development Credit Authority
  9-521-06-010-P   09/28/06   Audit of USAID/Haiti’s Management of P.L. 480 Non-Emergency
                              Monetization Program

 A-000-06-003-P    06/08/06   Audit of USAID’s Implementation of Key Components of a Privacy
                              Program for its Information Technology Systems

 A-000-06-004-P    09/28/06   Audit of USAID’s Compliance with Provisions of the Federal
                              Information Security Management Act of 2002 for Fiscal Year 2006


                                                                                                     BU--Better Use of Funds

                                                                                                     QC--Questioned Costs

                                                                                                     UN--Unsupported Costs

                                                                                                     Note: UN is part of QC





Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS               47
                                                                                                     Amount of
        Report             Date of                                                                               Type of
                                                                    Report Title                      Findings
        Number             Report                                                                                Findings
                                                                                                      ($000s)
     A-000-06-005-P       09/27/06   Audit of Selected Application Controls over the Annual Report
                                     Application System
     E-267-06-003-P       07/10/06   Audit of USAID/Iraq’s Local Governance Activities

     E-267-06-004-P       08/16/06   Audit of USAID Transition Initiatives in Iraq




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





48      SEMIANNUAL REPORT TO THE CONGRESS                                                                        Appendix A
                     PERFORMANCE AUDIT REPORTS ISSUED

                      April 1, 2006 through September 30, 2006


                     AFRICAN DEVELOPMENT FOUNDATION

                                                                                                   Amount of
     Report       Date of                                                                                           Type of
                                                         Report Title                               Findings
     Number       Report                                                                                            Findings
                                                                                                    ($000s)

                                            --ECONOMY AND EFFICIENCY--

 A-ADF-06-001-P   09/28/06   Audit of the African Development Foundation’s Compliance with the
                             Provisions of the Federal Information Security Management Act of
                             2002 for Fiscal Year 2006




                             INTER-AMERICAN FOUNDATION

                                                                                                   Amount of
     Report       Date of                                                                                           Type of
                                                         Report Title                               Findings
     Number       Report                                                                                            Findings
                                                                                                    ($000s)

                                            --ECONOMY AND EFFICIENCY--

 A-IAF-06-001-P   09/27/06   Audit of Inter-American Foundation’s Compliance with Provisions of
                             the Federal Information Security Management Act of 2002 for Fiscal
                             Year 2006




                                                                                                  BU--Better Use of Funds

                                                                                                  QC--Questioned Costs

                                                                                                  UN--Unsupported Costs

                                                                                                  Note: UN is part of QC





Appendix A                                                                     SEMIANNUAL REPORT TO THE CONGRESS               49
                          AUDIT REPORTS OVER SIX MONTHS OLD

                           WITH NO MANAGEMENT DECISION*

                                 As of September 30, 2006

                                                                                     Desired
          Report                                   Issue           Current           Decision
                                  Auditee
          Number                                   Date      Recommendation Status    Target
                                                                                       Date




                                             NOTHING TO REPORT




     *Applies to USAID,ADF, and IAF.




50       SEMIANNUAL REPORT TO THE CONGRESS                                             Appendix B
                     SIGNIFICANT AUDIT RECOMMENDATIONS

                      DESCRIBED IN PREVIOUS SEMIANNUAL

                        REPORTS WITHOUT FINAL ACTION

                             As of September 30, 2006


                                                         USAID

                                                                                                             Final Action
     Report                                                               Issue       Rec.   Management
                                   Subject of Report                                                            Target
     Number                                                               Date        No.    Decision Date
                                                                                                                 Date

 0-000-03-001-C    Report on USAID’s Consolidated Financial              01/24/03      2.2      01/24/03        09/07
                   Statements Internal Controls and Compliance for
                   Fiscal Year 2002

  9-000-05-001-P   Field Support Mechanisms in the Global Health         12/07/04      3        12/07/04        11/06
                   Bureau

 A-267-05-005-P    USAID’s Compliance with Federal Regulations in        01/06/05      4        01/06/05        10/06
                   Awarding the Contract for Security Services in Iraq
                   to Kroll Government Services International, Inc.

  9-615-05-007-P   USAID/Kenya’s Implementation of the President’s       07/21/05      4        07/21/05        12/06
                   Emergency Plan for AIDS Relief

  7-624-06-002-P   USAID/WARP’s Management of Environmental and          01/31/06      1        01/31/06        11/06
                   Food Security Programs
                                                                                       2        01/31/06        11/06

                                                                                       3        01/31/06        11/06

                                                                                       4        01/31/06        11/06


  9-000-06-003-P   USAID’s Reasonable Accommodation Policies and         12/13/05      3        12/13/05        12/06
                   Procedures


 A-000-06-001-P    USAID’s Information Technology Governance Over        02/21/06      1        02/21/06        10/06
                   Its Phoenix Overseas Deployment and Procurement
                   System Improvement Program Projects                                 2        02/21/06        03/07

                                                                                       3        02/21/06        03/07

                                                                                       4        02/21/06        03/07

                                                                                       5        02/21/06        03/07

                                                                                       6        02/21/06        03/07




Appendix C                                                                        SEMIANNUAL REPORT TO THE CONGRESS         51
                                                                                                          Final Action
        Report                                                           Issue     Rec.   Management
                                     Subject of Report                                                       Target
        Number                                                           Date      No.    Decision Date
                                                                                                              Date

     1-526-06-003-P   USAID/Paraguay’s Reproductive Health and Family   01/13/06    1       01/13/06         12/06
                      Planning Activities
                                                                                    2       01/13/06         12/06

                                                                                    3       01/13/06         12/06

                                                                                    4       01/13/06         12/06

                                                                                    5       01/13/06         12/06

                                                                                    6       01/13/06         12/06

                                                                                    7       01/13/06         12/06

                                                                                    8       01/13/06         12/06

                                                                                    9       01/13/06         12/06

                                                                                   10       01/13/06         12/06

                                                                                   11       01/13/06         12/06
     4-617-06-004-P   USAID/Uganda’s Development Credit Authority       02/13/06    5       02/13/06         10/06




52     SEMIANNUAL REPORT TO THE CONGRESS                                                                     Appendix C
                       AFRICAN DEVELOPMENT FOUNDATION


                                                                                                         Final Action
     Report                                                           Issue       Rec.   Management
                                  Subject of Report                                                         Target
     Number                                                           Date        No.    Decision Date
                                                                                                             Date

 9-ADF-03-005-P
 Audit of Awarding and Monitoring of Grants by the   02/28/03      2        02/28/03        02/07
                 African Development Foundation
 9-ADF-05-008-P
 African Development Foundation’s Monitoring,        08/17/05      1        08/17/05        11/06
                 Reporting and Evaluation System
                                                                                   3        08/17/05        12/06

                                                                                   4        08/17/05        11/06

                                                                                   6        08/17/05        11/06

                                                                                   13       08/17/05        11/06

                                                                                   14       08/17/05        10/06




                             INTER-AMERICAN FOUNDATION


                                                                                                         Final Action
     Report                                                           Issue       Rec.   Management
                                  Subject of Report                                                         Target
     Number                                                           Date        No.    Decision Date
                                                                                                             Date




                                            NOTHING TO REPORT





Appendix C                                                                    SEMIANNUAL REPORT TO THE CONGRESS         53
                                    REPORTS ISSUED WITH QUESTIONED

                                         AND UNSUPPORTED COSTS

                                    April 1, 2006 through September 30, 2006


                                                                        USAID

                                                                                        Number
                                                                                                         Questioned              Unsupported
                                       Reports                                          of Audit                                          1
                                                                                                           Costs                    Costs
                                                                                        Reports
                                                                                                                      2                        2
        A. For which no management decision had been made as of                             48           $7,126,286               $3,465,267
           April 1, 2006
                                                                                                                          3                       3
        B. Add: Reports issued April 1, 2006 through September 30,                          77          $109,684,590              $24,719,081
           2006

            Subtotal                                                                       125          $116,810,876              $28,184,348
                                                                                              4                       5                        5
        C. Less: Reports with a management decision made April 1,                          73           $15,002,430               $8,715,468
           2006 through September 30, 2006

             i.   Value of Recommendations Disallowed by Agency                                          $3,093,947                $1,339,695
                  Ofﬁcials

             ii. Value of Recommendations Allowed by Agency Ofﬁcials                                     $11,908,483               $7,375,773
                                                                                                                          6                       6
        D. For which no management decision had been made as of                             61          $101,808,446              $19,468,880
           September 30, 2006




     1. Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General Act
        Amendments of 1988 (P.L. 100-504).

     2. The ending balance at March 31, 2006, for Questioned Costs totaling $13,607,408 was decreased by $6,481,122 to reﬂect adjustments in prior
        period recommendations due to additional audit work performed; the ending balance at the same period for Unsupported Costs of $6,032,434
        was decreased by $2,567,167 for the same reason.

     3. Amounts include $95,954,160 in Questioned Costs and $19,324,799 in Unsupported Costs for audits performed for the OIG by other federal
        audit agencies.

     4. Unlike the monetary ﬁgures of this row, this ﬁgure is not being subtracted from the subtotal.

     5. Amounts include $4,459,400 in Questioned Costs and $3,012,737 in Unsupported Costs for audits performed for the OIG by other federal audit
        agencies.

     6. Amounts include $94,699,605 in Questioned Costs and $18,305,159 in Unsupported Costs for audits performed for the OIG by other federal
        audit agencies.




54         SEMIANNUAL REPORT TO THE CONGRESS                                                                                               Appendix D
                     REPORTS ISSUED WITH RECOMMENDATIONS

                        THAT FUNDS BE PUT TO BETTER USE

                        April 1, 2006 through September 30, 2006


                                                          USAID


                                                                                      Number
                                        Reports                                       of Audit       Dollar Value
                                                                                      Reports

  A. For which no management decision had been made as of April 1, 2006                  0               $0

  B. Add: Reports issued April 1, 2006 through September 30, 2006                        2            $154,735

      Subtotal                                                                           2             $154,735

  C. Less: Reports with a management decision made April 1, 2006 through                 2             $154,735
     September 30, 2006

      i.     Value of Recommendations Agreed to by Agency Ofﬁcials                                     $154,735

      ii. Value of Recommendations Not Agreed to by Agency Ofﬁcials                                      $0

  D. For which no management decision had been made as of September 30, 2006             0               $0




Appendix E                                                                     SEMIANNUAL REPORT TO THE CONGRESS    55
56
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, IAF, ADF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov


   Mail                  	USAID OIG HOTLINE
                          P.O. Box 657

                          Washington, DC 20044-0657



U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
          U.S.Agency for International Development 

                 Ofﬁce of Inspector General 

                 1300 Pennsylvania Avenue, NW 

                          Room 6.6D 

                    Washington, DC 20523


                        www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

        www.usaid.gov/oig/public/semiann/semiannual1.htm

